<html>
<title> - [H.A.S.C. No. 111-62]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED  ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 111-62]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

          BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE

                               __________

                              HEARING HELD

                              MAY 19, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE
54-551                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
                Lynn Williams, Professional Staff Member
                    Caterina Dutto, Staff Assistant







                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, May 19, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Air Force......................................................     1

Appendix:

Tuesday, May 19, 2009............................................    45
                              ----------                              

                         TUESDAY, MAY 19, 2009
  FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                  FROM THE DEPARTMENT OF THE AIR FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Donley, Hon. Michael B., Secretary of the Air Force..............     4
Schwartz, Gen. Norton A., USAF, Chief of Staff, U.S. Air Force...     6

                                APPENDIX

Prepared Statements:

    Donley, Hon. Michael B., joint with Gen. Norton A. Schwartz..    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................    65
    Ms. Giffords.................................................    67
    Mrs. McMorris Rodgers........................................    67
    Mr. Spratt...................................................    63
    Mr. Thornberry...............................................    64
    Mr. Wittman..................................................    67
 
 FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                  FROM THE DEPARTMENT OF THE AIR FORCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                             Washington, DC, Tuesday, May 19, 2009.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today, we have the budget 
posture hearing for the United States Air Force for fiscal year 
2010.
    Appearing before us today is the honorable Michael Donley, 
Secretary of the Air Force; General Norton Schwartz, Chief of 
Staff of the United States Air Force.
    Gentlemen, the committee thanks you and all those you lead, 
active duty, Guard, Reserve, as well as your civilian 
employees.
    And today, the Air Force is exceptionally busy. There are 
over 27,000 airmen deployed in Iraq and Afghanistan, while 
others are flying an average of 265 sorties a day in those two 
wars.
    There are another 7,000 deployed supporting contingencies 
elsewhere around the world. Twenty-four hours a day, airmen 
stand watch over 450 nuclear-tipped missile silos.
    Now, that is a lot of work. I am glad to see that the 
requested budget for fiscal year 2010 recognizes how busy you 
are, with an increase of $2.4 billion over last year and the 
request for a 2.9 percent pay raise. And increases in family 
programs in the areas such as childcare, spousal support, 
lodging, and education are all solid indicators that your 
people are a high priority, as they should be, something, of 
course, which this committee strongly supports.
    I am especially pleased to note that you have rethought the 
decision to decrease your end strength and you may even end 
this year above the authorized level. That is not a bad problem 
to have.
    I still have some concern about the Air Force's readiness. 
With the Air Force in continuous combat since 1990, high 
utilization rates of aging assets has contributed to ongoing 
detrimental effects on equipment, such as engine and structural 
fatigue, deterioration, corrosion, and increased rates of 
component failures.
    This budget request contains a request for $1.1 billion in 
military construction, which is $100 million more than enacted 
last year. However, this level of funding is significantly 
below the historical Air Force appropriations, and I am not 
sure it meets the need. We can discuss that in your comments.
    You have got multiple simulators sitting idle, awaiting 
supporting facilities, for example, aviation assets located at 
sites without available supporting facilities.
    Now, I understand you have a proposed plan to retire 254 
fighter aircraft in the coming year; 249 of these planes are 
proposed to be retired on an accelerated schedule.
    We are going to have to look at this very closely and 
understand what risks this plan might entail and whether the 
reinvested savings will net us an overall increase in the Air 
Force's ability to meet our national security requirements.
    In terms of airlift, I was surprised to see the changes in 
the joint cargo aircraft (JCA) plan. We appear to be seeing a 
reduction of 40 aircraft requested, and now what is a joint 
Army-Air Force program has become purely Air Force, and I 
assume you will discuss that.
    This is contrary to what the Department told us in the 
quadrennial roles and missions report this past January. So we 
would like to hear more about that analytical--about the 
analysis for that decision.
    So thank you, welcome. We look forward to your testimony.
    My friend, ranking member, Mr. McHugh.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you very much, Mr. Chairman.
    Like you, we certainly all want to welcome our 
distinguished guests.
    Chief, General Schwartz, Mr. Secretary, Secretary Donley, 
as our distinguished chairman said, we appreciate your joining 
with us. And I want to join with him, as well, in praising this 
budget and for the focus I know that you and your staff 
brought, along, of course, with Secretary Gates and the 
Administration as a whole, to focus on the people part of that 
equation.
    Nothing, in my judgment, is more important than taking care 
of those who take care of us so effectively, and that starts 
with good budgets and there are many things recommended in this 
budget in that regard, but, also, leadership provided by good 
people such as yourselves.
    And we thank you and, please, on our behalf, thank those 
brave men and women in your charge who are such amazing 
patriots in defense of freedom and our liberties.
    Having now gone through this process several times with 
Secretary Gates, Admiral Mullen, the civilian and military 
leadership, as posture hearings are intended to do, we are 
starting to get a somewhat clearer picture of what the 2010 
budget request looked like, certainly, taken as a whole.
    But what continues to trouble me, to a certain extent, is 
that it has not been made entirely clear at this point how much 
analysis actually went into the sweeping decisions that are 
carried under this request.
    And as Secretary Gates and I had a discussion about that, I 
heard a lot about, ``Oh, extensive analysis and we have been 
studying this and that for years and years,'' but to this 
point, by and large, we are still without that depth of 
analysis that apparently exists.
    And I understand the Secretary's attempt to balance the 
force and I truly do applaud the effort and have a great deal 
of sympathy as to the difficulty and the difficult choices that 
are involved in this budget.
    Mr. Secretary, you and I just chatted about that for a few 
seconds, and it is an undeniable reality.
    But I still have a degree of skepticism as to how much of 
this rebalancing was principally driven by realistic military 
requirements and the analytical rigor rather than budgetary 
pressures, and I just don't know the answer. But I think those 
are answers we need to try to clear up.
    And I would say, in that regard, nowhere is my skepticism 
more strongly felt than it is with what I understand so far 
about the proposed Air Force budget.
    Termination of the F-22 production, termination of the C-17 
production, termination of the next generation bomber program, 
termination of the combat search and rescue helicopter program, 
as the chairman said, the accelerated retirement of some 250 
legacy fighters, that builds a framework for the total 
reshaping of the Air Force. There is no question about that.
    But we need to understand and have a discussion about the 
assumptions, the threat assessments or changes in combatant 
commander requirements that support those decisions.
    And equally important, we have not as yet been provided a 
future years defense plan, the FYDP, and that is required under 
Section 221 of Title 10 of the United States Code.
    Instead, when Secretary Gates was before this committee 
last week and was questioned by Mr. LoBiondo and Ms. Giffords 
about the fighter shortfall and the future of the Air National 
Guard, his response was that the issue will be addressed in the 
Quadrennial Defense Review (QDR).
    That confuses me. You make recommendations to terminate F-
22 production and retire 250 fighters in the inventory, and yet 
you have framed the question as a critical issue within the 
QDR.
    And I can't think of a better phrase, when I ask, ``Isn't 
that putting the proverbial cart before the''--or ``the horse 
in front of the cart?''
    That said, that is why we are here today, to try to talk 
about these things, and I am grateful to have General Schwartz 
and Secretary Donley here to provide their views on this 
budget.
    In our hearing last week, Secretary Gates stated that some 
of the service chiefs had expressed their concerns, and I think 
the words he used, ``had been loud and clear about the budget 
during the internal deliberations.'' And he went to say that he 
fully expected them to articulate those concerns to this body.
    And I raise this point because I want to encourage our two 
distinguished guests today to--as the Secretary has said, you 
should engage in a dialogue with us so we can talk about these 
very, very important programs.
    We look forward to your comments.
    And, Mr. Chairman, I will submit the rest of my opening 
comments for the record in their entirety. And with that, I 
would yield back the balance of my time.
    The Chairman. Without objection, it is so entered.
    This is a very important hearing and we look forward to 
your testimony today.
    Secretary Donley.

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE

    Secretary Donley. Thank you, Mr. Chairman, Congressman 
McHugh, members of the committee.
    It is a privilege to talk with you----
    The Chairman. Get as close as you can.
    Secretary Donley. It is a privilege to talk with you today 
about America's Air Force and the tremendous contributions that 
its nearly 660,000 airmen and Air Force civilians make to 
America's national security.
    It has been almost one year since General Schwartz and I 
took responsibility for these roles, and I can tell you this 
has been a great partnership. And I am very grateful to have 
had General Schwartz as my wingman in this effort.
    He is a tremendous leader for our Air Force, and I could 
not have a better partner.
    In recent months, Secretary Gates and Admiral Mullen have 
led a constructive dialogue about necessary changes in our 
national defense priorities and areas of emphasis.
    These deliberations focused on taking care of our all 
volunteer force and our people first, institutionalizing and 
enhancing capabilities for today's fight, and the most likely 
scenarios in the years ahead, hedging against other risks and 
contingencies, and reforming how and what is procured for 
national defense.
    The Air Force has been well-integrated into this dialogue, 
with several opportunities to contribute our analysis and our 
judgment.
    To prepare for these discussions, we undertook several 
strategic reviews inside the Air Force and they have been 
instrumental in sharpening the Air Force's focus, and that of 
our sister services, the Office of the Secretary of Defense 
(OSD) and interagency partners, who also participated, as 
appropriate.
    Last fall, for example, we refined the Air Force's mission 
statement. We also articulated our five strategic priorities of 
reinvigorating the Air Force's nuclear enterprise, partnering 
with the joint and coalition team to win today's fight, 
developing and caring for our airmen and their families, 
modernizing our air and space inventories, and capturing--
recapturing acquisition excellence in the Air Force.
    Simultaneously, we carefully considered what the Air Force 
provides to the joint team. We refined our Air Force core 
functions to more clearly articulate our role in national 
defense.
    In the past months, we have made important progress in 
areas that required new and focused attention, such as 
publishing our roadmap for strengthening the Air Force nuclear 
enterprise, establishing the way forward for our cyber numbered 
Air Force, articulating our strategy for irregular warfare and 
counterinsurgency operations, consolidating our approach for 
global partnerships, and advancing our stewardship of the Air 
Force energy program.
    Consistent with the national defense strategy, the concept 
of strategic balance has guided our reviews. To the Air Force, 
strategic balance has four meanings.
    First, balance means prevailing in today's fight, while 
preparing for tomorrow's challenges. Second, it means balancing 
capabilities across the spectrum of conflict to respond to 
emerging hybrid threats.
    Third, balance means allocating investment across our 12 
diverse, but complementary core functions in a way that 
sustains and advances the United States Air Force as the 
world's finest airspace and cyberspace force.
    Finally, it means organizing, training, and equipping our 
Air Force effectively across the active and Reserve components 
effectively and efficiently.
    Our commitment to balance is reflected throughout our Air 
Force budget of $165 billion, of which about $115 billion-plus 
is Air Force-managed funding.
    Our budget proposal recognizes the tremendous talent of our 
airmen and Air Force civilians and that they serve as the 
backbone of America's Air Force, as Mr. McHugh noted.
    These volunteers are our most important asset and without 
them, our organizations and equipment would grind to a halt.
    For fiscal year 2010, our active duty end strength will be 
proposed at 332,000 airmen, with 69,500 airmen in the Air Force 
Reserve and nearly 107,000 in the Air National Guard.
    This halts the previously planned reductions in Air Force 
active duty end strength with commensurate adjustments in the 
Reserve components.
    We will also grow our civilian cadre to just over 179,000, 
which includes, 4,200 contractor-to-civilian conversions. At 
the same time, we will continue to reshape the skill set of our 
workforce, with particular emphasis on stressed career fields 
and mission areas that need our attention, such as 
intelligence, surveillance, and reconnaissance (ISR), 
acquisition, maintenance, cyber operations, and nuclear 
deterrence and sustainment.
    In fiscal year 2010, our manpower investment will include 
increasing the nuclear-related personnel, for example, by about 
2,500 and adding 200 acquisition professionals.
    In fiscal year 2010, we have also scrutinized our force 
structure. The hard-won lessons of our airmen and their joint 
teammates in Iraq and Afghanistan deserve our institutional 
attention going forward.
    At the same time, we must balance the forces across the 
entire spectrum of conflict.
    In theater, the demand for ISR and special operations 
capabilities continues to increase. So we will increase 
unmanned aerial system combat air patrols from 34 today to a 
projected 43 in fiscal year 2010, and increase SOF (Special 
Operations Forces) end strength by about 550 personnel.
    We will also reshape the portfolio of the fighter force by 
the early retirement of 250 of our oldest tactical fighters, by 
completing production of the F-22 at 187 aircraft, 4 more than 
the previous program of record, and, in conjunction with joint 
and coalition partners, by accelerating the test and evaluation 
program for the fifth generation F-35, the joint strike 
fighter, by procuring 10 aircraft.
    We will ensure balance in our airlift fleet by completing 
C-17 production, continuing the modernization of the C-5 fleet 
through the avionics modernization program and the reliability 
enhancement and re-engining program, re-initiating the C-130J 
production line after a one-year procurement gap, and 
transitioning the C-27 program, as the chairman noted, from the 
Army to Air Force oversight.
    We will also drive balance and stability into our military 
satellite communication programs by terminating the 
Transformational Satellite (TSAT) program and extending our 
inventory to six advanced extremely high frequency and eight 
wideband global satellites, and continuing to partner with our 
commercial partners in this area.
    For fiscal year 2010, we will also reform how we procure 
our war fighting capabilities. We recently published the Air 
Force acquisition improvement initiative. It includes 
improvements to revitalize the Air Force acquisition workforce, 
improve the requirements generation process, instill better 
fiscal and budget discipline, improve Air Force major systems 
source selection, and establish clear lines of authority and 
responsibility within our Air Force acquisition organizations.
    Looking forward, we will continue to participate through 
the remainder of this year in several major reviews of defense 
programs, the QDR, the Nuclear Posture Review (NPR), the Space 
Posture Review (SPR), and, also, we will keep an eye on the 
mobility capabilities and requirements study.
    From these analyses, we will better understand the need, 
the requirement and the available technologies for a next 
generation bomber, as well as our requirements and potential 
joint solutions for the personnel recovery mission.
    Stewardship of the United States Air Force is a 
responsibility that we take seriously, one underscored by our 
appreciation that the American people expect us to deliver 
global vigilance, reach and power in the most effective and 
efficient manner possible.
    Our fiscal year 2010 budget proposal reflects our 
commitment to taking care of our people, balancing the force, 
reforming our acquisition efforts.
    Mr. Chairman, we appreciate the continued support from this 
committee for America's airmen, and thank you for this 
opportunity to further discuss our proposed fiscal year 2010 
program.
    We look forward to your questions, sir.
    [The joint statement of Secretary Donley and General 
Schwartz can be found in the Appendix on page 49.]
    The Chairman. Thank you, Mr. Secretary.
    General Schwartz.

  STATEMENT OF GEN. NORTON A. SCHWARTZ, USAF, CHIEF OF STAFF, 
                         U.S. AIR FORCE

    General Schwartz. Mr. Chairman, Congressman McHugh, and 
distinguished members of the committee, I am proud to be here 
with Secretary Donley representing your Air Force.
    As you know, the United States Air Force is fully committed 
to effective stewardship of resources the American people place 
in our trust, a commitment founded on our core values of 
integrity first, service before self, and excellence in all we 
do.
    Guided by this core values, American airmen are all in, 
working courageously every day with precision and reliability.
    I recently had the chance to take a trip to visit with some 
of our airmen who are serving around the world. Approximately 
36,000 are deployed, a total force representing airmen from the 
active, the Reserve, and the Guard components.
    They are providing game-changing capabilities to the 
combatant commanders in conjunction with our joint and 
coalition partners.
    America's airmen are also serving in convoys and coalition 
operations centers, on provincial reconstruction teams (PRTs) 
and personnel recovery in the air and on the ground, delivering 
on-call close air support for our ground forces, and by 
providing our combatant commanders with excellence in aero-
medical evacuation, explosive ordnance disposal, and persistent 
intelligence, surveillance, and reconnaissance.
    Last year, airmen conducted 61,000 sorties in Operation 
Iraqi Freedom (OIF) and 37,000 sorties in Operation Enduring 
Freedom (OEF). That is, as the chairman noted, about 265 
sorties a day. And the Air Force also delivered 2 million 
passengers and 700,000 tons of cargo in the Central Command 
(CENTCOM) area of responsibility (AOR) last year.
    And our responsibilities are not solely limited or located 
to those in the immediate region. Every day, airmen are 
providing command and control of unmanned aerial vehicles 
(UAVs) from locations right here in the United States and 
delivering crucial effects for commanders on the ground.
    And our nuclear operations professionals support the 
umbrella of deterrents for our Nation and allies across the 
globe.
    And thousands of dedicated space professionals are 
providing capabilities ranging from early warning and detection 
of threats to advanced navigation, communications, and weather 
support for our forces engaged around the globe.
    Through Secretary Donley's guidance and leadership, we have 
set a course to provide even greater capabilities for America. 
As stewards of our Nation's Air Force, we are focused on 
meeting priorities effectively through wise investments.
    Our top line meets war fighting requirements across the 
spectrum of challenges and tailors programs that finance our 
capabilities for today's fight and in the years ahead.
    And so our posture reflects our priorities as we 
reinvigorate the nuclear enterprise with an investment of $4.9 
billion to increase nuclear personnel strength by some 2,500 
airmen and adding a fourth B-52 squadron.
    These investments provide examples of a comprehensive 
effort expressed in our nuclear roadmap, including our back-to-
basics approach for reemphasizing accountability, compliance, 
and precision in the nuclear enterprise.
    We are also fielding capabilities that allow us to innovate 
partnerships with our joint and coalition teammates in today's 
fight by institutionalizing adaptive capabilities for irregular 
warfare, with deployment of the MC-12 aircraft funded in fiscal 
year 2009 and scheduled for deployment this summer.
    Another example is the deployment of Air Force electronic 
warfare officers who are now bringing their expertise in the 
electromagnetic spectrum to bear in Iraq and Afghanistan and 
saving lives in counter-improvised explosive devices (IED) and 
other operations.
    These are examples of how we are rebalancing ourselves to 
operate across the full spectrum of conflict. We have expanded 
intelligence, surveillance, and reconnaissance capability, an 
investment of $480 million in fiscal year 2010 for 24 MQ-9 
Reaper unmanned aerial systems and an investment of $410 
million to procure special operations aircraft, like the MC-
130J.
    At the same time, we are committed to supporting our most 
precious asset, as Congressman McHugh indicated, our people.
    We are focused on providing programs that develop and care 
for our airmen and their families with world-class quality of 
service. We recommend investment of $245 million for new 
training facilities, child development centers, dormitories, 
and fitness centers.
    We have proposed $640 million for retention bonuses and 
recruiting in fiscal year 2010, including $88 million for an 
increase in recruiting and retaining of health professionals.
    One of our most solemn commitments is to our wounded 
warriors, and I am pleased to report that we continue to 
increase focus in this area, along with the rest of the 
Department of Defense, so that we may ease the burden on our 
wounded warriors and their families, as well as honor their 
sacrifice.
    Part of ensuring support for our airmen means providing 
them with the tools they need to do their jobs effectively. 
Therefore, we are modernizing our air and space inventories, 
operations, and training with the right, if, certainly, 
difficult choices for the war fighter in the field as well as 
our taxpayer at home.
    In addition to the programs Secretary Donley mentioned, we 
are committing to providing the Nation a robust air refueling 
capability and expect to release a request for proposal in June 
or July, with a mid-fiscal year 2010 contract award.
    We also intend to increase efficiency by retiring aging 
aircraft that are becoming too costly to maintain and we will 
complete production of the F-22 at 187 aircraft and C-17 at 205 
aircraft, subject to congressional approval.
    Our programs reflect our commitment to pursuing joint 
multi-mission solutions, such as the procurement of eight C-
27Js in fiscal year 2010, and we look forward to doing the same 
for the vital personnel recovery mission in the next QDR.
    Our approach reflects efforts to produce the right 
strategic capabilities for today's commitments and tomorrow's 
challenges, and, as Admiral Mullen recently stated in his May 
13 testimony, we are what we buy.
    And following his lead, we intend to maintain stewardship 
of America's resources on behalf of our war fighters in the 
field and taxpayers at home by recapturing acquisition 
excellence, as Secretary Donley just outlined, and fielding the 
right capabilities for our Nation on time and within budget.
    Mr. Chairman, with our core values guiding us, the Air 
Force will continue to deliver our best military advice and 
stewardship for the Nation, as we remain the world's finest Air 
Force, delivering global vigilance, reach, and power for 
America.
    Thank you for your continued support of the United States 
Air Force and, particularly, our airmen and their families who 
are dedicated to defending our great Nation.
    Sir, I look forward to your questions.
    [The joint prepared statement of General Schwartz and 
Secretary Donley can be found in the Appendix on page 49.]
    The Chairman. Thank you, General.
    I am not quite sure to whom I address this question, maybe 
to both of you.
    The Secretary used the phrase ``commitment to balance.'' In 
trying to be objective, let me mention a few items that you 
recommend: stopping the C-17 buy, retiring a substantial number 
of C-5As, requiring and asking for less joint cargo aircraft, 
retiring a substantial number of older fighters, ending the F-
22 line with acquiring F-35s, the Joint Strike Fighter, which 
will still be in development.
    So my question is: is the Air Force shortchanging itself 
with the missions that are required by virtue of what I just 
mentioned?
    Secretary Donley. To hit a couple of the highlights for 
you, Mr. Chairman, I think we are in the process of reshaping 
the Air Force. No question, we are having to make some 
difficult calls.
    But I do think there is analysis behind our work. These are 
issues that have gotten considerable strategic thought from 
within the Air Force and the rest of the Department.
    Just to touch on one, the C-17, the proposed closure of the 
C-17 line is something that we have been thinking about for 
several years.
    The Congress has been adding C-17s, but the Department has 
made a judgment that the 316 strategic airlift tails that we 
had by virtue of the program of record of the last few years is 
adequate to meet our needs. And so we had made previously a 
decision that we should go ahead and terminate the C-17 
production line.
    You will find nobody in the Air Force that is complaining 
about the capability or the value of the C-17. It is not about 
that. It is not about not recognizing the value of airlift.
    We have the former commander of the Transportation Command 
(TRANSCOM) as our chief. So we know the value of this work.
    We have made, in the Department, considered judgment about 
the requirements for the strategic airlift fleet.
    We have also done some business case analysis which tell us 
that there are other alternatives to get marginal improvements 
in our current strategic airlift capability that we could 
pursue at less cost than buying more C-17s.
    So we think there is flex in the current capability. There 
are additional options for increasing capability up to certain 
limits, if that should become necessary at some point, that are 
cheaper than buying C-17s.
    So we have been over that ground very carefully over the 
past couple of years.
    On the F-22 decision, we took a broader strategic look at 
the total combat air forces capability that we have, also, that 
is available to the Department, and I will tell you that there 
is a general view in the Department's leadership that the 
United States has enough tactical air capability, maybe even a 
little bit more than we need in relationship to future 
requirements.
    And with that in mind, we felt like it was a prudent 
opportunity to accelerate the retirement of older aircraft, as 
we have done in this budget.
    The program of record, as Secretary Gates has already 
articulated, the program of record for the F-22 was set in 
December of 2004 at 183 aircraft.
    So that decision had been made previously, and so our 
decision was to stick with that approach. If we had our 
druthers, we would be moving the F-35 to the left and sort of 
making a decision here to focus on the success of the F-35 as 
the next fifth generation aircraft, and we are committed, going 
forward, to continuing mods for the F-22 program.
    There are almost $1 billion in modifications to the current 
fleet of F-22s in this year's budget and several billion more 
over the projected program going forward.
    So we think we have made--we know we have made some tough 
decisions here, but we have made decisions balanced across that 
tactical fighter force structure.
    The Chairman. General, do you have any comments? Are you 
shortchanging yourself?
    General Schwartz. Mr. Chairman, if there were many, many 
more dollars available for our Air Force, we might have made 
different choices.
    But the truth of the matter is that we had to look at the 
array of things we are required to do in support of the 
combatant commanders, and it was our judgment, difficult though 
they were, that discontinuing production of F-22 and C-17, for 
example, was a way to get us to a position where we could offer 
the country the best possible air forces for the resources that 
were allocated to us.
    And so I personally supported both the F-22 decision and 
the C-17 decision, sir.
    The Chairman. Thank you.
    John McHugh.
    Mr. McHugh. First of all, Mr. Chairman, under the heading 
of holding myself responsible, I want to state that when I 
stumbled over the proverbial horse before the cart, it was 
because I read it rather than thought it.
    I come from a part of the world where we know horses and we 
know carts, and I know the saying is ``the cart before the 
horse.''
    And speaking of imperfections, let's talk about this 
budget. Let me just ask a quick question.
    Chief, the Secretary of Defense is talking about the 
decision to shift the JCA program to the Air Force and cut the 
procurement down to 38, and he mentioned several times in his 
testimony, and this is a quote, that ``we had an enormous 
amount of untapped capability in our C-130 fleet.''
    I have been to Iraq 10 times, Afghanistan 4 times, flown on 
C-130s every time.
    Do you think we have got enormous untapped capability on 
our C-130 fleet and if so, where are you hiding it?
    General Schwartz. Congressman McHugh, we can probably do 
our work better. We can make better use of the machines we 
have.
    I wouldn't characterize it quite that way. But the 
Secretary's view is that--and this is really a part of a larger 
discussion of whether the United States Air Force can do both 
the general support mission, that is, sort of theater support, 
which tends to emphasize efficiency, as well as the direct 
support mission, which tends to emphasize effectiveness on 
behalf of dedicated support to certain elements within the 
joint force.
    And I agree with him that we, as an Air Force, can do a 
better job on the direct support mission and have committed to 
do so.
    Now, speaking of the joint cargo aircraft, I certainly 
supported bringing on the JCA.
    As the Secretary of Defense has indicated, there will be 
additional analysis that will occur in the Quadrennial Defense 
Review that could better inform us on what the top line numbers 
should be. It is certainly at least 38.
    Secretary Donley. I would agree, at least 38.
    Mr. McHugh. There are some decisions here that have to be 
balanced against risk, and we talked about the strike fighter 
decision and the F-22 and so on and so forth.
    The legacy retirements, the 250 or so planes, really don't 
affect the projected shortfall that was previously set of some 
800 planes through 2024. These planes were always going to come 
out of the inventory.
    But they are coming out sooner and that does raise a 
question. Your National Military Strategy calls for 2,250 
aircraft. This accelerate retirement will take you--and I don't 
have the exact figure, but I believe it's more than 100 planes 
below the stated requirement to execute the National Military 
Strategy.
    How do we rectify and justify that decision? And it may be 
the proper one, but speaking of analysis.
    General Schwartz. Congressman McHugh, this is a question 
about how to connect dots and how do we get ourselves into a 
configuration which is one that is primarily generation five-
based, primarily with F-35s and F-22s, and how do we get on 
that glide path.
    Our judgment was, both for reasons of fleet-aging, which 
you implied in your question, and for making the F-35 available 
more broadly, not only to the Navy and the Marine Corps, but to 
our overseas partners, as well, that we needed to increase 
production rates.
    Now, that, for us, should be not less than 80 aircraft a 
year. Ideally, we would push production rates above that, 
perhaps as high as 110.
    In order to do that, it was our judgment that we needed to 
get after this process and free up resources, take some risk, 
admittedly, in order to position ourselves to get on that 
manageable ramp for F-35 so that we, again, can manage fleet 
age, get F-35 into the fleet before the F-16s begin to attrit 
in large numbers, and get the quality kind of force that we 
think we need.
    So the assessment was that, yes, we are on a path which is 
somewhat below the numbers which came out of the last QDR, 
remains to be seen what numbers come out of the ongoing QDR.
    But we felt that the imperative was to get to F-35 at least 
80 a year or higher as soon as we could, and that is our 
motivation, sir.
    Mr. McHugh. And it is going to be a great aircraft, from 
everything I know about, but we are putting an awful lot of 
faith in the program delivering on time that hasn't accrued a 
lot of reason to give it to faith.
    But that is a statement. You are welcome to respond to it.
    The savings for the retirement to be applied and reinvested 
in upgrading of our legacy fleet and building that glide path 
to the F-35, if we don't do that, it is going to be disaster.
    I am not greatly assuaged by recent history. In 2007, we 
all supported, some more reluctantly than others, some opposed, 
but the decision was made to reduce Air Force end strength and, 
in large measure, those savings were supposed to be reinvested 
and they didn't appear and if they did appear, they were 
harvested to other programs.
    We don't have a Future Years Defense Program (FYDP) right 
now. What kind of assurances can you give and, more 
importantly, really, because I believe what your intents are, 
what kind of assurances have you received we are not going to 
repeat that same mistake, take the savings out of these legacy 
accelerated retirements and use them somewhere else? Because if 
that happens, the wheels are coming off the bus.
    General Schwartz. Congressman McHugh, it certainly is more 
than our intent. It is our conviction. It is our commitment to 
you and to our own airmen, and I don't think that that 
conviction can be misunderstood by anybody in the Pentagon.
    Mr. McHugh. Mr. Secretary, do you feel as good as your 
chief does?
    Secretary Donley. A couple of points, sir. First of all, 
the Joint Strike Fighter (JSF) is an extremely important 
program for the Department of Defense and for our international 
partners. So we need to make that a success.
    We need to stay on cost and schedule. It is going to be 
very difficult. This is not an easy program. It is very 
complex. It is making this difficult transition from 
development into early production. So it is that danger spot 
where we have not completed all the testing.
    We are still going into the test program at the same time 
we would like to increase production. So there are things about 
the program we don't know yet until we get through the testing.
    But it is an extremely important program and we can and 
must make it a success.
    In terms of what we have done with the combat air forces 
reduction dollars, we have put that into modifications and 
upgrades for the legacy fourth generation airplanes that are 
going to be with us for a little bit longer.
    Importantly, we have taken the manpower and we have put 
that against unmanned aerial systems, ISR, and the nuclear 
enterprise, sort of the three big pieces.
    So this was thought through and we have committed those 
resources, not just this year, but in our planning years ahead, 
in those directions.
    Mr. McHugh. I am worried about the future years more than 
the current.
    But thank you, gentlemen.
    And, Mr. Chairman, thank you. I yield back.
    The Chairman. Thank you.
    Before I call on Mr. Spratt, let me explore just a bit 
further what Mr. McHugh just raised.
    Does it concern you a great deal in purchasing the Joint 
Strike Fighter in a cylinder test and development while you are 
actually acquiring them?
    That seems to be a serious balancing act.
    Secretary Donley. It is a serious balancing act. It is 
similar to what we have gone through, I think, in every 
aircraft program that I am aware of.
    We have done our best to reduce the risk in the Joint 
Strike Fighter. We have added hours. We have added airplanes to 
the test program, but still--and this is the most robust test 
and risk reduction that we have ever put into a tactical 
fighter program.
    So we have made important investments to reduce risk. But 
we still are at that point in time where we are trying to do 
both, and there is concurrency in this respect, not different 
than what we have faced in the past, however. But it is a 
delicate time.
    The Chairman. So, theoretically, you could have the Joint 
Strike Fighter in combat, in some unforeseen incident, while it 
is still undergoing tests as to whether it is fully capable to 
be in combat.
    General Schwartz. Sir, the F-15 is still in test, so is the 
F-16. I think just to amplify what the Secretary said, we add 
capabilities to these airplanes all the time.
    In fact, one of the outcomes of the reduction in the legacy 
force that we talked about will enable us to install the 
infrared track system and infrared capability on those F-15s 
that will remain.
    There will be some testing associated with that 
installation, but it is a proven piece of hardware and one that 
is certainly used on other airplanes.
    But just to give you my sense of the F-35, based on my 
observations and study of this, is that we are going to have 20 
airplanes in the test program for the F-35. That is really 
unprecedented.
    We have an airborne simulator for the software. It is a 
business jet kind of platform, but it allows us to work the 
software in an airborne setting.
    These are efforts that did not occur for the F-22 nor the 
prior machine and at least it gives me some level of 
confidence. Perhaps Congressman McHugh has somewhat less, but 
it gives me a level of confidence that this F-35--we may have a 
hiccup or two, but it won't be a major issue. I think that is 
much less likely.
    The Chairman. Thank you very much.
    We are under the five-minute rule.
    Mr. Spratt.
    Mr. Spratt. Thank you very much, Secretary Donley and 
General Schwartz.
    General Schwartz, I thought this would be a good time for 
us to put on the record your response to certain questions 
about the relocation of U.S. Air Forces Central (AFCENT) from 
Shaw Air Force to Al Udeid Air Base in Qatar, a decision which 
appears to be fairly imminent.
    Did this proposal originate with the Air Force or with 
Central Command (CENTCOM) or elsewhere, and what is the likely 
timeframe for its resolution?
    General Schwartz. Congressman Spratt, thank you for that 
question.
    It did originate with the Air Force and it is imminent, as 
you suggest. The nomination for General North, the current 
incumbent at 9th Air Force in Air Force Forces Central, reached 
the Senate last Friday. And so subject to confirmation, we will 
move ahead with this proposal.
    What we have in mind, sir, in short, is simply this. The 
way we have levied responsibilities for the commander of Air 
Force forces in Central Command has been both the war, the war 
fight, the operational piece, as well as supervision of matters 
in the rear; that is, at Shaw, that is the wing subordinate to 
9th Air Force, general court-martial authority, administrative 
requirements and so on.
    And given the mandate that we have received both from the 
chairman and the Secretary of Defense to focus like a laser on 
the fight in Afghanistan, we made the judgment that what we 
needed to do was to download the rear responsibilities from 
that three-star commander so he could focus exclusively on the 
fights in Iraq and Afghanistan, predominantly Afghanistan.
    In order to do that, we are suggesting that for this period 
of time, that the three-star commander, General North, and his 
successor will go forward full-time, will not have 
responsibilities in the rear. That will be performed by a two-
star 9th Air Force commander and a one-star deputy and that 
when the time comes when these obligations forward subside, we 
will reset to the former peacetime configuration.
    Mr. Spratt. You describe this then as a wartime measure 
that is necessary under the circumstances, but it is temporary.
    General Schwartz. I do, sir.
    Mr. Spratt. And can you assure us that when the time comes, 
that the 9th Air Force will be reunited with AFCENT?
    General Schwartz. That is absolutely our intent, sir.
    Mr. Spratt. There has been a succession of three-star 
generals at Shaw who, at times when the ops tempo was much 
greater, didn't see the necessity of this.
    What compelled you to this decision today, at a time when 
ops tempo really is a bit lower than it has been in the past?
    General Schwartz. Sir, it is as high as it has ever been, I 
would argue, and, certainly, as commitments have subsided a bit 
in Iraq, they have accelerated in Afghanistan, and we feel that 
the current need for 100 percent focus on the operations 
currently underway require us to make this temporary change.
    That is the best military judgment, Congressman Spratt, of 
your Air Force leadership; not just me personally, but 
certainly the leadership team.
    Mr. Spratt. As you know, in Base Closure and Realignment 
(BRAC) 2005, elements of the 3rd Army at Fort McPherson are 
being transferred to be colocated at Shaw.
    Have you coordinated this decision with the Army and what 
course is the Army likely to take if AFCENT makes a decision?
    General Schwartz. Congressman, we have certainly 
coordinated this with the commander of Central Command, General 
Petraeus. He favors this course of action.
    It was coordinated with General David McKiernan, currently 
the commander in Afghanistan. And we have discussed this with 
the Army. I can tell you that the Army intends to relocate, as 
required by law and according to their plan, to the Shaw area 
with 3rd Army, Army Central, and I do not know for sure if they 
will follow suit with what we have proposed or not.
    That isn't clear to me at the moment, but I can tell you 
that the Army leadership has reassured me personally that there 
is no, again, lack of conviction on their part to execute the 
relocation.
    Mr. Spratt. Could I have one additional minute, Mr. 
Chairman?
    The Chairman. Without objection.
    Mr. Spratt. Two final questions. There is a military 
construction (MILCON) request for the expansion of 9th Air 
Force headquarters, where AFCENT also is colocated.
    Does the Air Force support this facility, a 50,000 square 
foot addition to the headquarter?
    General Schwartz. Congressman Spratt, that is the wing 
commander's number one priority and we concur with that.
    Mr. Spratt. Then, finally, how many troops will accompany 
the three-star who goes forward?
    General Schwartz. Our expectation is that it will be less 
than 50, probably less than 40.
    Mr. Spratt. Thank you very much. I have some more 
questions, but time doesn't permit it, and I will submit those 
for the record. But we appreciate your responses.
    General Schwartz. Yes, Congressman Spratt.
    The Chairman. Thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Gentlemen, I would like to build on the line of questioning 
begun by my ranking member, Mr. McHugh.
    It is my understanding that to supplement organic 
capability, the Department is currently using contract aircraft 
to move cargo in the Afghanistan area of responsibility (AOR).
    It is also my understanding that a number of these missions 
are being performed by the CASA aircraft, an aircraft which 
participated in, but was not selected during the joint cargo 
aircraft competition.
    The Department selected an aircraft to perform a mission, 
the joint cargo aircraft, but is contracting with the loser of 
the competition to perform this mission.
    Can you help the committee understand the rationale for 
this decision, particularly in light of the fact that we have 
decided to buy only 38 joint cargo aircraft rather than the 78 
originally anticipated?
    The decision to reduce the numbers of joint cargo aircraft 
procured, coupled with current plans to increase U.S. presence 
in Afghanistan, would appear to place an increased level of 
stress on our organic aircraft capabilities and may force an 
increase in contracted aircraft.
    Are you comfortable with increased reliance on contracted 
aircraft support in Afghanistan and if so, then why should we 
buy any cargo aircraft or our own?
    As is true with any major procurement, there have been a 
number of analyses and subsequent approvals completed through 
the acquisition requirements process which define the joint 
cargo aircraft mission and resources required to perform that 
mission.
    In this year's budget, the joint cargo aircraft program is 
transferred to the Air Force and we understand, from testimony 
provided by General Casey, that the Air Force has committed to 
fly the aircraft the last tactical mile when the Army needs to 
supply or resupply.
    Have you assessed what are the additional resources that 
will be required to perform this mission? Are there additional 
manpower and flight crews required and if so, are they funded 
in this budget?
    General Schwartz. Congressman Bartlett, thanks for that 
question.
    The bottom line is the contract operation in Afghanistan 
predates the JCA program, at least as it is currently 
configured.
    And this is this fundamental question I referred to earlier 
of the difference between general support and direct support. 
There was a sense in Afghanistan that the Air Force could not 
and, in some cases, physically could not access certain of the 
forward-operating bases in the country.
    The C-130 simply was too much airplane either for the 
airstrip or the terrain or what have you.
    Mr. Bartlett. Well, sir, that being true, then why would we 
want to buy less joint cargo aircraft which were designed to 
meet just that requirement?
    General Schwartz. Sir, as I indicated earlier, certainly, 
the number is not less than 38. But to go back to your original 
question, I think the key point is that we should be reluctant 
to contract out this kind of mission support.
    And, yes, General Casey and I have had discussions and, 
yes, I have made a commitment to do the direct support mission 
the way the United States Army thinks they need to have it 
done.
    And if you sustain the Department's proposal of migrating 
the JCA to the United States Air Force, our commitment is to do 
it the right way and do it the way the Army needs it done.
    For example, we typically would support a mission and you 
might get a different crew every day. It is an efficient way to 
operate. But if the expectation of that brigade combat team 
(BCT) commander is that he will see the same crew every day for 
30 days, if that means a lot to him operationally, then your 
Air Force should be adaptable enough to perform the mission in 
that fashion.
    And we are adaptable and we will perform the mission as 
required, sir.
    Mr. Bartlett. Sir, there have been two recent hearings in 
which we asked witnesses from the Army and from the Guard if 
they knew of any studies that had indicated that the original 
78 requirement had been reduced or could be reduced to 38, but 
they both told us that, to their knowledge, there was no study 
that indicated it.
    Is that true?
    General Schwartz. There are no studies beyond those which 
justified the former force structure
    Mr. Bartlett. Of 78.
    General Schwartz. Of 78.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here this morning, 
Secretary, General Schwartz.
    Secretary Donley, it is good to see you again. You were 
confirmed October 2, and you must be like the luckiest guy in 
Washington, taking this job on before the election, didn't know 
the results, and I applaud you for your being available to 
provide this transition.
    I think what has occurred with the Defense Department in 
the transition to the new Administration is probably a model we 
need to look at with other departments, such as Treasury. We 
have got some real issues there.
    And, General Schwartz, it is good to see you again.
    General Schwartz, you also came in at a difficult time as 
Chief of Staff of the Air Force. We appreciate your service.
    When Secretary Gates was here last week, he stated that now 
that the budget has been submitted, that those who testify 
should feel free to point out where they disagree with the 
budget.
    What are the top three ways, if you were submitting the 
budget document, you would have had different numbers or 
considerations in the document?
    General Schwartz. Congressman Snyder, there are basically 
four areas that I would have adjusted.
    One is to--again, we talked about the bridge strategy on 
the fighter force--is to emphasize the investment in those 
platforms so that those that remain in effect are more capable 
than their current status.
    Second, as I suggested, is to increase the production rates 
of F-35 as rapidly as the program can sustain those production 
rates.
    Third would be to acknowledge that there is a requirement 
for the armed forces to provide a long-range strike capability 
and that long-range strike capability needs to be properly 
defined.
    It is probably a bomber of some variety and so on, but that 
we need, through the QDR and the Nuclear Posture Review (NPR), 
to get our Secretary of Defense comfortable with the parameters 
that we propose for that platform.
    As you are aware, he discontinued the next generation 
bomber. That is a concern to the Air Force, to be sure, and I 
think the larger joint team. And once we get him comfortable 
with the parameters, range, payload, manned, unmanned, nuclear, 
nonnuclear, low observable, very low observable, then we need 
to proceed aggressively with that program.
    And, finally, there are areas in the unmanned aerial system 
category where additional automation would reduce manpower 
requirements.
    At the moment, we fly one platform with one control 
station, with one crew. It is entirely possible to do that 
differently, and we need to get on with allowing one crew to 
operate more than one platform at one time.
    Sir, those are four representative areas.
    Dr. Snyder. We spend a lot of time in this committee, as we 
are this morning, talking about the platforms and equipment. I 
wanted to talk specifically about personnel and professional 
military education (PME).
    As you look at this budget document, what decisions did you 
make and how does the budget document reflect investment in 
people to come up with the kinds of strategists that we want 
and that Mr. Skelton envisioned 20 years ago when this whole 
process was changed?
    General Schwartz. I may not be a very good example, but I 
am a product of the chairman's efforts over the years.
    Dr. Snyder. I think you have just insulated yourself from 
all criticism from the chairman.
    General Schwartz. Hopefully, a halfway credible 
representative. But I think that the key thing here, sir, is 
that we currently have a program of about 240 international 
affairs strategists, as well as the kind of folks that are 
operationally sound, as well, which is what the chairman 
focused on over the years.
    We currently have about 100 of those fully trained, those 
international affairs strategists, and have 120 in training. We 
are fully devoted to competing for positions, important 
positions in the joint world, which means we need to prepare 
our Air Force leadership to be bigger than where they came 
from.
    Professional military education allows us to do that, and 
we do that well.
    One last thing, though. I would make the point that we need 
to make these opportunities available to our international 
partners and, to an extent, that is currently somewhat limited. 
We would be far better off if more Indonesians and more 
Pakistanis and more others attended professional military 
education in the United States rather than less.
    Dr. Snyder. Thank you.
    The Chairman. Thank the gentleman.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Can we talk tanker just a little bit?
    I guess time is drawing near now where it looks like we may 
be putting out another request for proposals (RFP). I don't 
know how many more RFPs we are probably going to put out in the 
future.
    There is some concern out there that there are rumblings in 
regards to how the RFP is going to be worded, obviously, and 
there are folks that are asking the question are we looking now 
specifically on lowest price, not lowest price-technically 
acceptable, but just the lowest price.
    Has the Air Force ever in its history done a contract based 
solely on the lowest price?
    Secretary Donley. Sir, I would propose that we get back to 
you for the record on that specific question.
    [The information referred to was not available at the time 
of printing.]
    Secretary Donley. In terms of the current status of our 
work, first, I think the Secretary has indicated that this 
remains a very high priority, not just--it is certainly a high 
priority for the Air Force. It is a high priority for the 
Department of Defense to get on with tanker modernization.
    So in the midst of all the difficult decisions that we have 
made, this one stands unchanged in terms of our commitment to 
get this back on track and move forward.
    The Secretary has been waiting for his new under secretary, 
Dr. Carter, to get confirmed. That has now been accomplished. 
So the Air Force has been in dialogue with Dr. Carter and his 
staff.
    We are starting to engage the key issues that need to be 
addressed as we prepare to put that RFP later this summer. So 
we are in the process of doing that right now.
    Mr. Miller. General Schwartz, if you will, I am going to 
give you an opportunity, also, since you have been in the Air 
Force, your words just a minute ago, for a long time, and we 
all know that.
    Can you remember any time in your service in the Air Force 
that the Air Force used lowest cost as the sole factor in 
deciding the contract?
    General Schwartz. Congressman, probably not, but I don't 
think that is what we are talking about here. What we are 
talking about here is that if the offerors meet the minimum 
technical requirements, then the competition would be based on 
price. But you still have to satisfy the minimum technical 
requirements.
    It is not just a price-based competition, sir.
    Mr. Miller. Is it fair to say that if the lowest cost 
bidder is picked in a competition, then eventually there are 
going to be additional costs, perpetual upgrades, to remain 
relevant as requirements in the military and environments 
change?
    Secretary Donley. I would say that the history of our 
programs is that all of our procurements, almost all of our 
procurements for weapons systems and aircraft end up with 
modifications along the way, in the history of the programs.
    Mr. Miller. What is to prevent--I mean, we do the RFP. You 
award the contract. What is to prevent the person that doesn't 
win the contract from protesting and this thing just goes on 
and on?
    It already has and we know that, but, I mean, this thing 
could go on out ad infinitum.
    Secretary Donley. Well, there is nothing that would prevent 
that from happening except that we are working diligently in 
the Air Force and with the Office of the Secretary of Defense 
to make sure that the RFP we put out has measurable 
requirements, that we have sort of locked down the details of 
our work, our expectations in the RFP, what we expect to get 
back from offerors, so there is no ambiguity and that we are 
well-positioned for any protest that might come down the pike.
    This is our obligation inside the Air Force and inside the 
government to make this successful process. And so we are all 
about making this as bulletproof as we can internally.
    Mr. Miller. If I can, and I am running out of time, I have 
some additional questions I would like to add for the record.
    But is it your testimony then that the last RFP was flawed 
in those areas?
    Secretary Donley. Well, I think I would let the prior 
statements on the Government Accountability Office (GAO) 
protest and our reactions to that stand for the record.
    The Chairman. Mr. Marshall, please.
    Mr. Marshall. Thank you, Mr. Chairman.
    Thank you both for your service and the service of those 
you lead.
    Picking up on what Mr. Miller said, I trust that, in the 
process, all processes for acquisition platforms in the future, 
we are going to modify things, do it a little differently than 
we did with the C-17, get data rights, and, in the process of 
moving forward with the acquisition, agree with whoever the 
original equipment manufacturer (OEM) is on a transition 
process so that our depots and at least us, we are in control 
of the maintenance, sustainment, modernization process that we 
know is going to occur over a 40-,

50-, 60-year period of time and where the real cost of the 
platform is actually going to lie, if we don't, up front, get a 
deal that makes sense from the taxpayers' perspective.
    I was essentially going to ask the same question Mr. Snyder 
did, what are your top four additional things you would like to 
take. I won't repeat his question. It has already been 
responded to.
    Let me talk a little bit about JCA.
    Chief, do you have plans now concerning how the deployment 
of these platforms that are coming in will be handled? Are they 
going to go to the same places?
    Will it just be Air National Guard as opposed to Army 
National Guard? I think at least initially, they were planned 
for Army National Guard, folks who were going to be deployed 
almost immediately to Afghanistan.
    And Army, with its deal, was contemplating a contractor, 
contractor logistics support (CLS), wasn't, as I recall 
correctly, since I was actively involved in trying to help the 
parties come together and get to a common view of this, Army 
wasn't particularly interested in data rights. Air Force was 
interested in data rights.
    Air Force, again, on this platform, should be interested in 
what is the tail end going to look like, are we going to start 
developing our management team right now for sustainment, 
modernization, maintenance, that sort of thing.
    If you could, talk about those sorts of questions with this 
transfer.
    General Schwartz. Sir, the acquisition will remain with the 
Army into next year. We are getting together to talk about the 
transition of the program piece of this and it won't happen 
immediately for the reasons you suggest.
    We have got to figure out how to do this. What will 
initially occur is folks at Wright-Patterson and in our 
aviation systems organization will partner with their 
counterparts in the Army to run the procurement into 2010, when 
there will be a transition to Air Force oversight, and that 
dialogue is now underway.
    We are not at the level of detail on the exact support 
methodologies and so on and so forth as yet, at least it hasn't 
come to my level.
    Secondly, with respect to your other question, we are not 
very far along on this question of how would we organize 
ourselves to do this mission.
    The Army, we, and the National Guard Bureau are working the 
questions.
    There were 12 locations which had previously been 
identified for Army JCA and there were 6 locations in the Air 
Force that might have been candidates for JCA, given the prior 
program.
    And we will have to talk about how we address both what is 
the right basing, what is the right footprint, how do we assure 
that we can support the calendar year 2010 requirement for at 
least four airplanes in Afghanistan, with qualified crews and 
so on. That is the pacing item.
    And what probably will occur here is that we will worry 
about supporting the operational commander as the first 
imperative and then bring on the basing as a second order 
question.
    Mr. Marshall. If I could, my time is about to run out.
    We have got a model for this kind of transfer. It is the 
Caribou from Vietnam. And I trust that in the process of trying 
to work out the details of how this is going to be handled and 
what sort of services are going to be provided to the Army, 
that you will look to that model, how it broke down, to try and 
assure that we won't have those problems again.
    General Schwartz. I take your point, Congressman.
    Mr. Marshall. Thank you. I yield back.
    The Chairman. Thank the gentleman.
    Mr. Wilson, the gentleman from South Carolina.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    And, General, Mr. Secretary, thank you for being here, and 
thank you for your service.
    I particularly appreciate the Air Force. My dad served in 
the 14th Air Force, the Flying Tigers, during World War II. It 
was truly the highlight of his life and he always cherished the 
people he got to know, the service that he had.
    I am also grateful that I have a nephew who is currently 
serving in the Air Force. I have previously visited him when he 
served in Iraq, and I am just grateful for his service and 
appreciate the opportunities that you provide of protecting 
America and then providing opportunities for young people to 
serve.
    And I did grow up in the shadow of Charleston Air Force 
Base and I know how much the people of the Trident area support 
that base. I am happy to back up Congressman Spratt with Shaw 
Air Force Base. And then I am particularly, also, grateful to 
almost represent, geographically, McEntire Joint Air Base.
    And I was very happy to be with Chairman Skelton in 
February. We visited Iwo Jima, and we visited the small 
Japanese air station that is located there. And when you come 
in, when you look in the window, there was one picture of an F-
16 taped to the window and it is from the Swamp Fox squadron, 
signed by Dean Pennington.
    And so what recognition for the Air National Guard and what 
they mean for our country.
    And, General, the use of airmen to augment certain U.S. 
Central Command (CENTCOM) requirements is not projected to be 
reduced in the near term.
    What impact does the augmentee mission have on the Air 
Force's ability to perform its core mission, and, also, what is 
the impact on the careers of the individual air members?
    General Schwartz. Second question first, Congressman. I 
think it is absolutely positive. We currently have about 4,200 
folks that are in what we now call joint expeditionary 
taskings. Those are somewhat nontraditional missions that our 
people are performing, properly trained.
    At one point, it was as high as maybe 6,500. So it is a 
little less than the peak that we have seen in the past.
    The bottom line is that I have not--in fact, I traveled, I 
was at Arifjan about six weeks ago, and I spent time with our 
folks that are supporting convoy missions in Iraq.
    There is not a single young person, male or female, who 
thinks that the work that they are doing is not worthy. They 
are all in. And I am convinced, Congressman, that when these 
kids grow up to be chief master sergeants, it is going to be a 
different and better Air Force.
    So the bottom line is it places demands on our people, but 
the Nation is at war and the Air Force is going to be available 
to do what is needed.
    Mr. Wilson. And I have seen this actually with the Navy, 
too. The Sand Sailors are trained at Fort Jackson, South 
Carolina, and then proceed to Iraq and Afghanistan, and it has 
been a very positive experience for our Navy personnel.
    Mr. Secretary, with the success of recruiting and 
retention, I am concerned that the budget has been reduced.
    In the future, if we have, again, a downturn, will the 
reduced budget that we have now have a negative consequence if 
we do not have such an environment for people to want to serve 
as they do today and as they have for the past 10 years?
    Secretary Donley. Well, no question, sir, that we need to 
have--continue to have the resources that we need, especially 
to focus on reenlistment and incentive bonuses, that we can 
target on those career fields most in need, and that tends to 
be a separate issue from our total end strength, if you will.
    So we have, perversely, as I think we all understand, when 
the economy has gotten more difficult, that has helped our 
recruiting and retention, no question. But we still have some 
stressed career fields. We do need to have the resources to 
focus on those stressed career fields.
    Medical continues to be a challenge where we have all the 
authority we need, we even have the resources, but it is just a 
very competitive environment to get those health care 
professionals in.
    So the dollars do tend to ebb and flow as the economy goes 
up and down, but we need to have the dollars in there for 
reenlistment and incentive bonuses to target against areas of 
particular need.
    Mr. Wilson. Thank you.
    The Chairman. Thank the gentleman.
    Mr. Heinrich.
    Mr. Heinrich. Thank you, Mr. Chairman.
    Mr. Secretary and General Schwartz, I want to thank you for 
joining us here today.
    Mr. Secretary, I wanted to start by saying that I am deeply 
concerned about the aircraft cuts that are proposed across the 
Air Force active duty and Air Guard.
    Last week, during the hearing with Secretary Gates, I 
questioned the rationale behind accelerating the retirement 
when Air Force had already predicted shortfalls in the required 
2,200 aircraft fighter inventory beginning in fiscal year 2017, 
and I remain unconvinced that this is the right way forward.
    What makes absolutely no sense to me is that despite being 
ranked the number one fighter base in the country during the 
2005 Base Closure and Realignment Commission (BRAC) process, 
Kirtland Air Force Base, which is located in my district, is 
now slated to lose its entire fighter mission.
    Equally troubling is that the combat Air Force 
restructuring report that your office released on May 15 lists 
23 bases across the country, all having future missions 
declared, whereas one fighter wing has been selected to lose 
its entire flying force without a follow-up mission even being 
determined.
    That wing happens to be in my district at Kirtland Air 
Force Base.
    Now, considering the accelerated retirements of fighter 
aircraft, despite the predicted shortfall, that Kirtland was 
ranked number one in the 2005 BRAC process, and that a future 
mission for the base has yet to be declared, and that the 
Quadrennial Defense Review is still being developed, does it 
make sense to retire the entire 150th Fighter Wing?
    Secretary Donley. Mr. Heinrich, just to go back to first 
principles, we do understand that this is a difficult decision 
that affects many states and communities.
    First, I think it is important to recognize that this 
discussion in the Air Force actually preceded General 
Schwartz's and my arrival. So this had been under consideration 
for almost a year now inside the Air Force, and the Air Force 
proposed this reduction before we got into the more extreme 
budget environment that we have come into in the last four or 
five months.
    So this was viewed as a good strategic move for the United 
States Air Force. The reductions proposed were carefully 
balanced between overseas and continental United States (CONUS) 
locations and were carefully balanced between the active and 
the Reserve, as well.
    So this was not an easy process, but it was done in a 
balanced and thoughtful way across the combat air forces.
    Mr. Heinrich. How thoughtful is it to have a future mission 
to be determined for the 150th, when each of these other 
fighter wings has a future mission outlined?
    General Schwartz. Congressman, I think that it is important 
for the 150th, a good organization, as we both know, to think 
more broadly about what future opportunities there are for 
missions.
    Now, maybe they are manned aircraft, maybe not. Maybe they 
are associate missions with folks already at Kirtland, like the 
special operations wing that is there.
    Mr. Heinrich. The 58th.
    General Schwartz. Yes, sir, or perhaps in association with 
the F-22 operation at Holloman as it stands up.
    So I think there are a number of opportunities here and we 
need to interact, naturally, with the Adjutant General (TAG) 
and so on to determine what is the best fit and given the needs 
that we have in the Air Force and so on.
    Mr. Heinrich. Well, let me express my willingness to work 
with you on that.
    And one more quick question that is related. Basically, 
what were the criteria that were used to select which wings 
would be retired and were upgrades and refurbishment taken into 
account?
    For example, I know half of that fighter wing had already 
gone through Falcon Star upgrades, extending their potential 
life another eight years.
    General Schwartz. We looked at the entire fleet and an 
analysis, an extensive analysis was performed, a business case, 
if you will, on the advantages of further extending life or 
accelerating retirements, and, in the end, the conclusion was 
that those--the birds, as I recall, block 40 class aircraft at 
Kirtland were the ones that we should accelerate retirement, 
and elsewhere.
    By the way, the rough numbers are there were about 12 
percent of the force structure on the active duty that would 
accelerate retirement, 6 percent each in the Guard and the 
Reserve, just to give you a sense of scale, Congressman.
    Mr. Heinrich. Thank you, Mr. Chair.
    The Chairman. Thank the gentleman from Cool Camp.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you very much, Mr. Chairman.
    Mr. Secretary, General, thank you for being here.
    General, I was very pleased to see that the air sovereignty 
alert (ASA) mission was fully funded under the President's 
Budget. But I am confident that you are fully aware that the 
Air National Guard is predicting that in 8 years, 80 percent of 
the ASA aircraft units will begin losing their flying hours.
    This, I think, has pretty much been widely accepted.
    In previous hearings, I and some of my colleagues have 
tried mightily on this committee to try to get some answers. 
The committee has been assured that the Air Force is working on 
a plan and that everything will be fine.
    We have heard repeatedly, ``Everything will be fine. We 
just need some more time.''
    Well, I am not feeling so good about that answer, don't 
feel as good today as I did last week, and each day that goes 
by, I think we have a problem.
    It has taken a long time and I think either the Air Force 
doesn't have a plan or you are not willing to share it with us. 
And I, along with Congresswoman Giffords, and you heard Mr. 
McHugh mention it and there are a number of other members who 
really believe that this has got to be addressed now.
    The recent GAO report highlighted several issues with the 
ASA mission, including in its funding.
    And I would like to know whether you plan to support and 
fund the ASA mission as a steady-state mission. And I would 
also be very interested to hear your thoughts and feelings on 
the fighter shortfall issue, which is impacting the Air Force 
and the Air Guard, and when can we expect to see and hear a 
plan that we can understand?
    General Schwartz. Congressman, there are 18 air sovereignty 
alert locations. Two of those locations will transition to F-
22. Four of those locations will transition to the so-called 
Golden Eagle. This is one of the F-15s that have the 
electronically scanned radar, the infrared search and track and 
so on.
    And the other 12 locations are not final-final yet, but it 
looks like they should be F-35 locations, provided we have a 
high enough production rate in the program.
    So there are still some uncertainties. I have given you the 
six things that we are sure of, and there are still some 
uncertainties.
    The bottom line is we are committed to air sovereignty 
alert as a requirement and we will support it either on--I 
should say that we are unlikely to support it in a dedicated 
fashion, in other words, to only have airplanes that only do 
air sovereignty alerts. They will have deployment missions and 
so on and so forth, but we will cover those 18 locations.
    And you have got the lowdown on the 6 and we will give 
you--as soon as we have it solid, we will give it to you on the 
remaining 12.
    Mr. LoBiondo. Well, are you saying that you plan to support 
and fund the ASA mission as a steady-state mission?
    General Schwartz. The short answer is yes. It may be part 
of a multi-mission tasking, which is what we do in lots of 
different areas in our Air Force.
    I doubt that it will be a dedicated mission for ASA only, 
but it will be part of the larger Air Force tapestry of 
capabilities, sir.
    Mr. LoBiondo. Thank you.
    General, do you agree or acknowledge that if the F-35 
program slips and we find this sometime in one year or two 
years from now, that it is going to dramatically impact the 
ability to move F-35s into Air Guard units?
    And at that point, with no other backups of legacy 
aircraft, how do Air Guard units stay alive? How do they be 
relevant with no ability to make up the bathtub?
    General Schwartz. Congressman, I can't promise you that 
every unit that currently has a flying mission will continue to 
have a flying mission indefinitely into the future.
    There are already Air Guard units that have transitioned to 
unmanned vehicles in Montana, in California, in Texas, for 
example.
    So what I am saying is there will be future missions for 
those units, that I have no doubt, but they may or may not be 
flying missions, and this is the reality of our Air Force going 
forward.
    Mr. LoBiondo. So as we move forward, there is just going to 
be a long period of uncertainty as to how we are going to do 
this and which units are affected.
    General Schwartz. Sir, I understand your anxiety and I 
appreciate it and I understand the need for clarity for our 
family here, including the National Guard, and we will offer 
that clarity just as soon as we can.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Ms. Shea-Porter from New Hampshire.
    Ms. Shea-Porter. Thank you.
    Secretary Donley, a study was sponsored by the Naval Air 
Systems Command to identify problems of counterfeits in the 
avionics electronics supply chain, and they found a large 
number of problems.
    I assume that those problems would also be reflected with 
the Air Force. And these companies have moved overseas. The 
study found that most counterfeits originated in Asia and were 
not discovered until the parts were returned as defective or 
they actually failed.
    And I would like to know what plans you have to look for 
this. Do you plan to track the suppliers of counterfeits? And 
will there be any consequences for suppliers or manufacturers?
    Secretary Donley. Ma'am, I am not familiar with the 
details. I do know that the results of the Navy study are 
available and have been exploited by Air Force personnel and 
Air Force Materiel Command.
    We are aware of the problem and the issue. I would like to 
get a more complete answer for you for the record.
    [The information referred to was not available at the time 
of printing.]
    Ms. Shea-Porter. Okay, I would appreciate if you would do 
that.
    This seems to be an ongoing problem in so many areas, but 
this one, obviously, will have enormous impact on the wellbeing 
and the safety of our troops, and, in addition, ripping off the 
American taxpayer, again, which seems to have become a chronic 
condition.
    General Schwartz. Congresswoman, if I might just add.
    Ms. Shea-Porter. Thank you.
    General Schwartz. I am sure you are aware that there have 
been several prosecutions related to this sort of activity and 
that certainly is--we are a part of that process, as well.
    Ms. Shea-Porter. Well, then maybe I should ask you, please, 
do you have some system for rooting this out and are you 
creating or do you have a database to keep the names of the 
offenders and to make sure that they don't receive any 
contracts?
    General Schwartz. We will provide that for the record, 
ma'am.
    Ms. Shea-Porter. Okay, thank you. I appreciate it.
    My second question continues about contractors in theater. 
I just came back from Afghanistan last week. I was absolutely 
horrified to hear reports once again of contractors behaving 
badly and some of the resulting problems that they have.
    And so I wanted to know, do you have enough resources in 
theater? Do we have enough people, actually, enough people on 
the ground to pay attention to these projects and to collect 
the information and to prosecute?
    The number of prosecutions seems very, very small compared 
to the number of stories that we have.
    Secretary Donley. I am aware, Congresswoman, that the Air 
Force has--Air Force contracting personnel, in particular, have 
increased their numbers in theater in the past several years 
and were part of, if you will, the fix-it team that came in to 
beef up the contracting capability in theater following some of 
the early problems that the Army and others had experienced.
    The challenges out there are significant, but I do think we 
have put the resources against the problem to get it under 
control.
    Ms. Shea-Porter. Do you feel you have enough expertise 
inside or do you need to get more contractors?
    Secretary Donley. My understanding is that we have 
accelerated the number of Air Force contract personnel, 
contracting personnel, from our acquisition workforce that we 
deploy regularly to the theater.
    In fact, this has now become a stressed career field for 
the Air Force because of a career field that is normally not 
deployed having to perform more deployments, more rotations 
into the theater to support this capability.
    General Schwartz. And, in fact, Congresswoman, they are on 
a one-to-one rotation scenario, one period of time at home to 
one period of time deployed. That is the level of effort that 
the Air Force is committing to this undertaking.
    Ms. Shea-Porter. I guess the question I am asking is if we 
are sitting here in two years or four years, will we hear what 
we have heard for the past couple of years, which is we did not 
have enough people to keep track of this?
    So if we need more people, if you don't have enough people 
on the ground and you don't feel confident that we actually can 
start watching out for the taxpayer and the troops, this is the 
time to say it.
    And you are saying that you feel confident that we have 
enough people to catch this now.
    Secretary Donley. Let us go back and sort of discuss this 
in terms of the demand signal downrange and get you an answer 
for the record.
    [The information referred to was not available at the time 
of printing.]
    Ms. Shea-Porter. Thank you very much.
    Secretary Donley. Thank you, ma'am.
    Ms. Shea-Porter. I yield back.
    The Chairman. Thank you.
    Mr. Turner, please.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank both of you for your leadership and, also, 
your effort today to answer some of our questions.
    As you can tell, in many of the questions, there are issues 
of concern for the future of the Air Force.
    When I listened to Joe Wilson about his description of his 
district, it reminded me not only of the fact that Wright-
Patterson Air Force Base, which is in my district, has a 
symbolism of the Wright Brothers that were there, who tested 
their aircraft, and, of course, the labs that are there, but 
that it sort of fits into the mission of what we all expect 
from the Air Force.
    I mean, the Air Force has always been the site of 
innovation, where we all wonder about what is going to be 
possible and what the future is going to hold.
    And now, today, we listen to this budget and we are all 
concerned, not asking what is possible or where the innovation 
is going to be, but even whether or not you are going to be 
able to sustain what we suspect and expect of our Air Force.
    We are all very concerned about the future of the direction 
of the Air Force.
    But it is great to hear that you are going to abandon the 
decreases in personnel that was an effort to, I believe, 
cannibalize the personnel funds in order to recapitalize the 
Air Force.
    But we are not seeing that recapitalization occur. We are 
not seeing the increases of spending that would really give us 
that vision of what is this future Air Force that we are going 
to have.
    We see a lot of programs being ended, a lot of planes being 
retired.
    Now, in your description, of course, in looking to the 
future, one of the things you look to is acquisition, because 
you are going to, of course, go through an acquisition process 
for the future, and the headline we have is recapturing 
acquisition excellence.
    And my understanding is that, in looking at your overall 
budget, that you have an intent of adding positions in 
acquisition, which I think is so important, because there is a 
huge amount of expertise in the acquisition process that is not 
just compliance with rules and regulations. It is also an issue 
of trying to encourage that innovation and the attainment of 
what is possible.
    But I would like for you to describe for me--you are going 
to add acquisition personnel. You also have, from what we have 
in our information, a statement of transitioning from contract 
employment to government employment.
    I am a little concerned that that actually will result in a 
reduction in your resources.
    Are you replacing people one-for-one? And many times, when 
you have a contractor relationship, you have additional 
supplemental assets that you can rely which you don't 
necessarily have in just an individual. So it would seem that 
you need to grow beyond just even a one-for-one.
    What is your replacement plan and how are you looking at 
supporting your acquisition processes?
    Secretary Donley. Good question, sir. I do not anticipate 
that we will be making conversions on a one-to-one basis. I 
think we will be somewhat higher than that.
    We are kind of working out those details based on funding 
availability, but we do intend to begin to move the pendulum 
back toward more organic Air Force civilian, in some cases, Air 
Force blue suit capabilities.
    As you know, and the members of this committee appreciate, 
over the years, the pendulum had swung the other direction very 
firmly in the 1990s toward contracting out more and more 
activity.
    I think there is consensus, certainly, in the Department of 
Defense, and my understanding is that there is consensus also 
in the Congress, that that may have gone too far, that we have 
some organic capability that may have walked out the door that 
we need to get back in.
    Mr. Turner. You need some institutional knowledge.
    Secretary Donley. To improve our institutional knowledge, 
to improve our oversight of contractor activity, just a variety 
of in-house capabilities, cost-estimating, systems engineering, 
a lot of important blocking and tackling capabilities that 
support our acquisition process at its foundation.
    So we are about building that back up and----
    Mr. Turner. Now, let's pause for a second. One of the 
things that I think I heard you said was a recognition, though, 
that you don't have--you can't do a one-to-one; that for giving 
yourself the same level of capacity, you are going to have to--
if you are adding government employees, you are going to have 
to do so at a higher rate than just as a one-to-one.
    Is that accurate? Because it is, obviously, less than one-
to-one.
    Secretary Donley. I think it may work out to a little bit 
less than one-to-one, not higher, and I wouldn't want to be 
specific. Each contract here is unique and is on a different 
schedule, and we are talking about capabilities that run a 
very, very broad gamut of contracting support, all the way from 
base level things up to systems integration for major 
procurement programs.
    Mr. Turner. Mr. Chairman, if I could just make one comment.
    I am concerned that this would be another area where you 
look at decreasing your workforce and end up having less 
capability.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Ms. Giffords, the gentlelady from Arizona.
    Ms. Giffords. Thank you, Mr. Chairman.
    I appreciate the opportunity to speak after Congressman 
LoBiondo.
    Congressman LoBiondo, for years, has highlighted the 
fighter gap issue, and my district is just adjacent to the 
162nd Air National Guard unit.
    So I am very concerned about the fact that within the next 
six years, it looks like they will completely be out of 
airplanes.
    I think about the fact that the Air National Guard is the 
sole guarantor of our Nation's air sovereignty, yet we are not 
going to have enough airplanes to defend our Nation's 10 
largest cities or the capital, frankly, by the year 2017.
    So we are concerned. New Mexico is concerned. Minnesota is 
concerned. We need to see the plan and we need to see it soon, 
because we have a lot of Guard units, we have a lot of 
civilians, we have a lot of our Air Force, our Guardsmen and 
women that depend on this, and we need to see the plan.
    So I am asking you if we could see that plan soon.
    Shifting gears, I wanted to talk about an issue that is 
pretty broad in nature. The Department of Defense (DOD) uses 80 
percent of the Federal Government's energy and the largest user 
of energy in DOD, of course, is the United States Air Force.
    The Air Force needs to be commended for some real 
innovative ideas that you all have had. But when you look at a 
2008 policy document, you talked about the fact that there are 
three pillars--reducing demand, increasing supply and changing 
the culture.
    So I am curious, being out in the southwest, representing 
the state of Arizona, that has got a lot of sun, why is it that 
there is a solar project at Nellis, a wind power project at 
Warren, but to the best of my knowledge, I don't see an overall 
strategy in terms of a unified manner of how we are going to 
implement this strategy of reducing our dependency on foreign 
energy.
    As a Nation, the fact that we are importing about 70 
percent of all of our energy--and, again, a lot of this goes to 
what you do. We have the ability, with the Air Force's 
technology and innovation, to revolutionize how we use energy 
and really not be dependent on these foreign regimes.
    So if you could please address that, General Schwartz.
    General Schwartz. You make a wonderful point, ma'am, that 
we are the largest consumer of hydrocarbons. And so there are a 
number of ways to approach this.
    In reality, over the last 6 or 7 years, we have actually 
reduced our overall consumption of hydrocarbons for air 
operations by over 15 percent, not even despite the global war 
on terror.
    So we have been working the internal piece of this, the 
demand side of this in terms of trying to be more efficient in 
the way we operate, with airplanes flying routes that are 
less--that we take advantage of the winds, minimize the adverse 
effect of the winds and so on and so forth.
    That is part of the sort of procedural way we can address, 
certainly, use of aviation fuels, where it is predominant.
    In the case of installations, in this budget, we have 
proposed, I think, $250 million for energy initiatives like the 
one you spoke at Nellis, which actually provides enough 
electricity to pay for a third of the year's use there, and 
wind at F.E. Warren Air Force Base and elsewhere.
    We have a number of pilot projects, including those, and we 
will begin to step down the road here as we gain more 
experience in what the--less science projects and more taking 
proven technologies in order to reduce energy consumption in 
our facilities and on our installations.
    And that is really the culture piece. Just like in your 
house, if our privatized homes are not metered, chances are 
people are less disciplined about use of power than they might 
otherwise be.
    So we are, again, in terms of trying to change the culture, 
as you mentioned, using things that we know will make people 
more disciplined about their use of energy at large, airplanes, 
on the ground.
    Ms. Giffords. It just, General, seems to me that it is more 
of a base commander-by-base commander strategy. And when you 
look at Nellis, they figured it out. There is a pretty good 
model out there.
    So when you look at Davis-Monthan or Luke or these other 
areas that are very similar in nature, it seems to me that that 
technology--and while we have opportunities where there are 
incentives, beta incentives available, obviously, the federal 
incentives are enormous, we really should be pushing this 
technology immediately.
    General Schwartz. We are in complete agreement.
    The Chairman. The gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, for your leadership, 
your service, your testimony, and your patience in dealing with 
our questions.
    I want to identify myself with some of the remarks of my 
colleagues earlier. Mr. McHugh said we don't have a Future 
Years Defense Program (FYDP). We have been dealing with the 
Secretary's nondisclosure policy.
    We haven't had access to analysis. We haven't had access to 
the discussions that we would normally have. And in the case of 
the Air Force, we are looking at what appears to us to be some 
very, very major cuts in major platforms or delays or 
extensions of uncertain duration and size.
    So it is pretty difficult for us to get our hands around 
this, although we have an outstanding professional staff here 
that is digging as fast as they can as we try to understand the 
full impact of what you are doing.
    I also want to identify myself with the comments that you 
have heard from Ms. Giffords and Mr. LoBiondo and others about 
the National Guard's air superiority mission, the fighters, 
what is going to happen.
    We have a lot of people--and, General, I know you know 
this--these are people wearing the same sort of blue suit and 
they have questions.
    Having said all of that, I want to shift to something else 
that we are seeing happen with the other services, and we are 
looking at in the larger budget.
    We have had some pretty big vehicle cuts or extensions, 
which we normally associate with the Army and the Marine Corps, 
the expeditionary fighting vehicle (EFV) for the Marines, 
future combat system (FCS) for the Army.
    But the Air Force operates a lot of vehicles, a lot of 
ground vehicles, and, specifically, right now, you have mine 
resistant ambush protected vehicles (MRAPs), as does the Army 
and the Marine Corps. You have got over 500 of them.
    Is that being worked into your plans? Is that something 
that is going to become a part of the Air Force's inventory? 
Are you going to do something about the mine resistant ambush 
protected all-terrain vehicles (MRAP-ATVs)?
    Where are you going with that program?
    General Schwartz. There will be a limited application of 
MRAP-like vehicles in the Air Force for those missions which 
clearly require it, like explosive ordnance disposal, those 
missions which are ``outside the wire'' kind of missions, 
security forces, OSI, office of special investigation, and so 
on.
    And so we are talking about a relatively small number by 
comparison to the Marine Corps or the Army, to be sure, but it 
is really tied to specific missions.
    Mr. Kline. So in addition to those MRAPs or MRAP-ATVs, 
which we would be interested to know where you are going to go 
with that--and we trust that you would be working with the Army 
and the Marine Corps because of the large numbers there.
    Again, you have got other vehicles, as well. It takes a lot 
of trucks to move a lot of the stuff you have got. And you are 
just going to continue with the sort of current technology and 
the current acquisition for those vehicles or what are you 
looking at there?
    General Schwartz. Consistent with Congresswoman Giffords' 
question earlier, we are looking at ways, again, to manage 
energy use through the purchase of the right kind of vehicles, 
whether they be multiple fuel vehicles or electrics, which we 
have a much higher number of, where they fit the requirements 
and so on.
    So the bottom line is we are looking at managing down the 
number of vehicles. We are looking at making them more diverse 
to reduce the fuel that is associated with their use, and, 
again, on the culture side, frankly, trying to get folks not to 
use the vehicles perhaps as freely as has been the case in the 
past.
    Mr. Kline. Okay. So you feel like you have what you need 
now. You have got a plan that will reduce fuel consumption and 
so forth.
    And specifically, in the terms of mine resistant or really 
protective vehicles, that absolute demand for which we have 
seen in Iraq and we will see going forward in Afghanistan, you 
feel like you are postured now.
    You have budgeted for them. You have got what you need for 
the program.
    General Schwartz. We are covered, sir.
    Mr. Kline. Let me jump to something else. I see my time is 
getting ready to change.
    But the United States Air Force is dropping a lot of 
ordnance that is usually outside the news and outside the 
visibility of most of the American people and even some on this 
committee, a lot of ordnance.
    Are you experiencing any shortfalls now in Joint Direct 
Attack Munitions (JDAM) or anything else, either for training 
or for operational use?
    General Schwartz. We have adequate stocks. But one of the 
things that the reduction in the fighter force was going to 
support was armaments, the Advanced Medium-Range Air-to-Air 
Missiles (AMRAAMs), for example, the air-to-air capability, and 
so on.
    And so the stocks are adequate. I would not say that, in 
every case, they are robust, and that is one of the areas 
where--to answer, again, Congressman Marshall and Congressman 
Snyder's earlier question--where I would put additional dollars 
if they became available.
    Mr. Kline. Well, I would hope we would never get in the 
position where we are not able to use ordnance when the troops 
on the ground have called for it because we are not robust 
enough.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman, General.
    Mr. Secretary, my question involves the tanker acquisition. 
Over the years, the military has made me a very big believer in 
commonality and economies of scale, whether it is in training 
or in acquisition.
    And I am just wondering, with that in mind, with this next 
acquisition, if any thought has been given to possibly settling 
on one tanker, holding out the opportunity that it might be 
built in more than one place, if that means it gets it 
delivered to the Air Force sooner.
    That would give you, I would think, economies of scales on 
engines, fuselages, wings, give you economies of scale in your 
training pipeline.
    The second thing that I am curious about is given that we 
have had, in the past 10 years, in particular, a series of 
flawed acquisition problems and, in almost every instance, 
since we don't have things like performance bonds, one thing 
that might have held the contractors a bit more responsible is 
if we as a Nation had owned a detailed set of plans for 
whatever it was we were buying, to where, if the first 
contractor did not deliver on time, on budget, a quality 
product, we as a Nation would be in a position to say, ``You 
know what? You either deliver or we are going to put it back 
out to an open bid.''
    Given the recent acquisition history, has any thought of 
that been given, again, in your next tanker acquisition?
    So the question would be one tanker, possibly built in 
multiple locations. Second thing, how seriously is the Air 
Force, as a part of this acquisition, requiring a detailed set 
of drawings not only for acquisition, but when the time comes 
for maintenance at the depots?
    Secretary Donley. To get to your first question first, 
Congressman, our challenge with respect to the tanker 
acquisition is cost and keeping cost and procurement in the 
same field of view.
    We are 100 percent aligned with the Secretary that we do 
not want two sources for this buy. If we did that, it would 
require us to develop, fully develop a second airplane, to 
fully facilitize two locations instead of one.
    Mr. Taylor. Mr. Secretary, you don't hear me arguing with 
you.
    Secretary Donley. Got you. But the other aspect of this is 
that if we went down that road, we would have to have--if we 
had two facilities, we have to have a minimum order quantity, 
economic order quantity to keep annual production cost 
effective.
    That problem applies whether it is one source or two 
sources.
    Mr. Taylor. Yes, sir, and I agree with you. And I would 
also point out that we build identical destroyers, which are 
very sophisticated warships, in two locations. So it is not 
like it can't be done.
    Secretary Donley. It can be done, but it is much more 
expensive. And our current plan for the tankers is built around 
an annual buy of about 15 airplanes.
    If we go to two locations, the minimum is viewed as at 
about 12 per site, one per month. That would drive----
    Mr. Taylor. But if we are able----
    Secretary Donley. If I could finish----
    Mr. Taylor. Go on to your point, sir.
    Secretary Donley. If I could just finish the thought, sir. 
That would drive our annual procurement to 24 per year. There 
are good things about that. We get the aircraft quicker. But it 
drives up our annual cost significantly, by maybe 70 percent or 
so.
    So the annual requirement for us to invest in tankers goes 
way up and to do that year after year after year makes a huge 
dent in our procurement plans going forward.
    Mr. Taylor. I think you answered my question. But we also 
are literally facing a cliff on the life of the tankers that we 
presently have. You have made that point very well.
    And if we are trying to address that in a short a period of 
time as possible, then I think, again, the one plane, multiple 
locations is something we ought to at least look at.
    The other thing is if one of the contractors fails to 
perform, you have some leverage to go to someone else. And I 
will remind those of you who haven't been here that long, C-17 
just turned out to be a great plane, but we had huge problems 
with that platform in the beginning and there was even a time 
when we didn't think we would buy them at all because we had so 
many problems, and this might keep the contractors on their 
toes.
    Secretary Donley. Yes, sir.
    Mr. Taylor. I would just ask you to consider it.
    Secretary Donley. With respect to your second point on tech 
data, I am certainly hopeful that we have learned that lesson 
and that is a priority in our contract work going forward.
    Mr. Taylor. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Spratt [presiding]. Mr. Lamborn.
    Mr. Lamborn. The decision was made last year to realign the 
cyber mission under Air Force Space Command and stand up a 
numbered Air Force, the 24th Air Force.
    Last week, you identified Lackland Air Force Base as the 
preferred alternative and Peterson Air Force Base as the 
reasonable alternative for the future home of the 24th Air 
Force.
    Two-part question. How will Air Force Space Command and the 
new numbered Air Force prepare to meet the challenges that DOD 
faces in cyber security and cyber warfare, and what role will 
the Air Force Space Command play in the acquisition process for 
cyber? Either one of you.
    Secretary Donley. If I could start, we think we have made a 
good decision on the alignment of 24th Air Force with Air Force 
Space Command.
    We do think there is important synergy between our cyber 
work and our space work, both with respect to the kind of 
technical capabilities required in the workforce and, also, the 
end-to-end visibility over network operations, if you will, and 
the extent to which cyber work depends on space and space work 
depends on land-based sort of cyber connections, as well.
    So we think there is good synergy in the alignment of those 
activities. We have seen that in our recent war game, the 
Schriever-5 war game, out and about it.
    So we think this is a good match.
    General Schwartz. I would just amplify by saying that in 
terms of acquisition, unlike the way Space Command deals with 
space acquisition through the space and missile center in Los 
Angeles, cyber acquisition would be handled in a more routine 
fashion perhaps through the Air Force Materiel Command 
acquisition process and our Air Force acquisition process.
    Clearly, though, we are not the center of gravity on this. 
There is a center of excellence for both expertise and design 
talent at the National Security Agency (NSA), for example. And 
so we will, no doubt, piggyback to a great extent on the very, 
very good work that is being accomplished there.
    There are two major functions that this numbered Air Force 
will perform. One is to defend our networks, and we all know 
that is a necessity.
    The second thing is those offensive capabilities that apply 
to the Air Force mission set, for example, engaging in 
integrated air defense, you can take it down kinetically or you 
might choose to do so through cyber means, if that is possible.
    That gives you some sense of the two roles, predominantly 
defend the Net, but there are offensive applications which we 
will field and improve upon in the years that go down.
    Mr. Lamborn. Thank you. And as a follow-up, what specific 
role do you see for Air Force Space Command to play in its 
interaction with the 24th Air Force?
    General Schwartz. Congressman, it will be what our major 
commands do, which is they provide organized train-and-equip 
oversight for our operational elements.
    That involves personnel management, force management, 
training. It involves ensuring that the youngsters have the 
tools they need to do their work.
    They will do all those overhead kinds of things that major 
commands do. This was another benefit, in my view, of aligning 
with Space Command, in addition to the similarities of the 
skill set and so on, had to do with the fact that there was 
some capacity in Space Command to perform these organized 
train-and-equip functions and not have to re-create that from 
whole cloth.
    I think that was a good stewardship way to approach the 
problem.
    Mr. Spratt. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony here today.
    I would like to begin a follow-up question as my colleague 
addressed just a minute ago with respect to the Cyber Command. 
The Air Force, obviously, has spent many years developing an 
Air Force Cyber Command, and the announcement just made to 
create the new joint Cyber Command through U.S. Strategic 
Command (STRATCOM).
    So, specifically, I guess, how will the Air Force role now 
change in the Air Force Cyber Command? Would that be rolled 
into this joint Cyber Command or will it continue tangentially 
to the joint Cyber Command?
    General Schwartz. Congressman, fundamentally, we are a 
force provider. That is what the United States Air Force does. 
We provide forces, airspace and cyber, to the combatant 
commands to be employed, and we will do that in the cyber 
realm, as well.
    We will provide well-trained individuals and units to 
perform cyber functions, and they will continue to align, at 
least for the near term, with the United States Strategic 
Command, the combatant command that has the responsibility for 
cyber operations for the Department of Defense.
    Now, you have heard reported and the Secretary of Defense 
has indicated that he is thinking seriously about standing up a 
sub-unified command with a four-star leader and if that is how 
this turns out, then our Air Force element will provide their 
capability to that four-star commander subordinate to the 
Strategic Command.
    So provide capability, people and wherewithal to do the 
mission according to the needs of the field commander.
    Mr. Langevin. Thank you.
    On another topic, as other members have already mentioned, 
the decision to move the Joint Combat Aircraft (JCA) program 
away from the Army is troubling, for a number of reasons.
    Currently, our Army Guard has a dual mission of serving 
both on the battlefield and on the home front, and I am 
concerned about our force's ability to meet this critical 
combat support mission in Iraq and Afghanistan, while also 
maintaining their critical homeland security mission.
    So my question in this area is how did the Air Force 
decision to replace the aging C-23s with just 38 planes ensure 
that our service members will, in fact, be able to meet both 
the air combat and homeland security missions?
    General Schwartz. As I indicated earlier, Congressman, 
there were 42 C-23s and 38 is the number in the fiscal year 
2010 budget submission to succeed those C-23s.
    How we go about getting the division of labor correct for 
both deployment missions and support of state requirements 
associated with the National Guard is still under discussion.
    I wish it was more mature. But we are well aware of these 
two needs and we will come to a conclusion on this. We have to 
make a presentation to the deputy secretary of defense by the 
30th of May. And so the work is ongoing and we will have an 
answer to that question, hopefully, to the deputy secretary's 
satisfaction, on the 30th of May.
    Mr. Langevin. Well, actually, it would be appear, to me, to 
be very challenging, if not impossible to meet those dual 
missions with just the 38 planes.
    But I think we will probably have to revisit that and I 
will certainly follow up and follow this very closely.
    Before my time runs out, Secretary Gates recently announced 
a decision not to cut the transformational satellite program, 
TSAT, and instead purchase two more advanced extremely high 
frequency satellites as alternatives.
    My question is what would that mean for our communication 
satellite industrial base and how will this affect other major 
satellite acquisition programs?
    And, finally, will the fiscal year 2010 budget reflect a 
commitment to prioritizing space acquisition programs?
    Secretary Donley. Sir, the TSAT decision was an important 
one. I think the Secretary felt, as did many around the table, 
that while the Air Force has put a great deal of investment 
into the TSAT program to reduce risk going forward, that the 
capabilities sought in the TSAT program were beginning to erode 
away for cost reasons.
    And so there was a great deal of, I think, concern all 
around about what the TSAT would eventually give us in terms of 
capability, which was potentially very significant, but what 
the cost would be with that.
    And I think that the Secretary's decision has taken risk 
out of the Military Satellite Communications (MILSATCOM) 
program. It is true that the Advanced Extremely High Frequency 
(AEHF) capability will not give us all the things the TSAT will 
give us, but adding on to the end of the AEHF program, adding 
two satellites there, adding additional satellites in Wideband 
Global SATCOM Satellite (WGS) will provide additional MILSATCOM 
capability until we can get more confident about the future of 
a TSAT-like capability out in the future and our ability to 
afford that.
    From an industrial base point of view, we are working with 
OSD right now on the decision memorandum which will tie up the 
details of the Secretary's decision and will put money against 
a technology development program going forward that will 
revisit some of the technologies and capabilities that we had 
been pursuing inside the TSAT program to make sure we keep 
abreast of those technologies as they develop and that we 
continue to keep teams together that will help us look at those 
capabilities beyond AEHF and beyond the WGS systems.
    Mr. Spratt. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony and for being here 
today.
    First question, you have $475 million focused in Regional 
Command (RC) South at Kandahar and Bastian, and then you have 
got 24 Reapers for $489 million.
    Does the Reaper money include the ground infrastructure 
money to support the Reapers? Because that is where everything 
is lacking right now. We have birds. We don't have the hangars, 
the runways, the support, the high-speed bandwidth available 
right now to actually use them.
    So what does that include? How do you break apart the 475 
and the 489?
    Secretary Donley. Sir, let me get you a detailed break on 
what is included in that. We do believe we have taken care of 
the ground support, the infrastructure issues, not sure how 
that breaks in terms of appropriation accounts, but we will get 
you that for the detail.
    Mr. Hunter. But it is going to be in line. So when the 
birds are there, you are going to have the infrastructure 
there, too.
    General Schwartz. And the back end.
    Mr. Hunter. Got you.
    General Schwartz. For processing the data. It is the end-
to-end piece.
    Mr. Hunter. How are things looking right now there?
    General Schwartz. We are doing very well, I think. As you 
are aware, we have got 35 orbits, 34 of which are Predator and 
Reaper, and one Global Hawk.
    Our distributed common ground system, the back end that I 
referred to, at the moment, in Central Command, is processing 
about one-third of the imagery that is being produced in the 
country and it is processing fully a half of the full-motion 
video.
    So it gives you a sense of the----
    Mr. Hunter. That is the analysis side of it.
    General Schwartz. That is right.
    Mr. Hunter. Got you. Let me ask you this. Has the Air Force 
had to turn down any ground commander's request for an AC-130 
in the last, say, two to three years, to your knowledge?
    General Schwartz. For a C-130?
    Mr. Hunter. For an AC-130, for the gunship.
    General Schwartz. A gunship.
    Mr. Hunter. Put it this way. Do you feel like you have 
enough AC-130 gunships to satisfy the war fighter?
    General Schwartz. The gunships, this is a little bit out of 
my lane. This is more in the Special Operations Command (SOCOM) 
area.
    Mr. Hunter. I understand that they own them, but the Air 
Force still----
    General Schwartz. As you are aware, in the 2010 budget, 
there is a proposal to take existing C-130 capabilities within 
our Air Force Special Operations Command and turn them into 
gunship platforms, and that will satisfy, based on what Admiral 
Olson has told me, their need for gunship capabilities.
    Mr. Hunter. But that will just satisfy SOCOM. So that is 
not even regular Army or more high-speed Army or Marine Corps. 
That is SOCOM only.
    General Schwartz. That certainly is focused on the SOCOM 
mission, and we naturally have strike platforms to do precision 
targeting, not least of which is the Predators and the Reapers.
    Mr. Hunter. But nothing has the capability of the AC-130 to 
stay on target and hover and wraparounds.
    General Schwartz. Again, I would argue that 20 hours from a 
Reaper is more than a gunship can----
    Mr. Hunter. Payload, though, payload-wise, the gunship has 
got a whole lot more.
    General Schwartz. I can't argue that, sir.
    Mr. Hunter. Okay. Thank you, gentlemen.
    I yield back the rest of my time. Thank you, Mr. Chairman.
    Mr. Spratt. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Thank you, General Schwartz and Secretary Donley, for 
appearing at the committee today and for your service to our 
country.
    The Air Force does not currently have a peer competitor. 
China is rapidly modernizing its capabilities.
    One criticism of this budget is that it delays modernizing 
our own air capability.
    Does this budget move us in the direction of having a peer 
competitor that we don't want to have?
    General Schwartz. Without talking about specific candidates 
for peer competition, I am confident that the current program 
can maintain our supremacy in the domains where the joint team 
expects us to secure the airspace and cyber effectively against 
that undefined peer competitor.
    Mr. Coffman. Mr. Secretary.
    Secretary Donley. I think this budget makes a very strong 
commitment to the fifth generation fighter capabilities, for 
example, that the United States has started to field already in 
the F-22 program and has on its books much more aggressive and 
ambitious plans for fifth generation modernization than any 
nation out there.
    So I think we are in pretty good shape on that front. Like 
General Schwartz, I believe we are well positioned to take on 
near peer competitors.
    And I think it is still important, however, to recognize 
that we need to be working on new aspects of our suite of 
capabilities which would potentially be vulnerable to 
asymmetric challenges from competitors, not just at the high 
end, the near peer, but, also, at the lower irregular end, as 
well.
    So continued attention to our cyber domain, continued 
attention to the space domain are particularly important going 
forward.
    Mr. Coffman. Thank you both.
    As a member of this committee, I want to make sure that we 
never have a peer competitor.
    General Schwartz, you mentioned, I guess, on the 18 
facilities that have an air sovereignty alert (ASA) mission and 
I think you broke it down, 2 for the F-22, 4 for the F-15, 12 
for the F-35, but then you said that not all those may be 
fulfilled in terms of having a flying mission.
    Can you give me any indication of any considerations that 
you would deem important in terms of making a decision as to 
what of these 18 facilities would receive a flying mission and 
which ones would not?
    General Schwartz. Again, I think it has to do with our 
level of resources, how many machines we have, and so on. I 
mean, one of the considerations is if you have a smaller force, 
does it make sense to consolidate, to some degree, or not.
    And so this is the long discussion that we have about unit 
size, for example. In a fighter squadron, is an 18-aircraft 
fighter squadron the optimal size or 15 or 12, in some cases, 
rather than, say, 24.
    And the reason this is important, sir, is because it has to 
do with, again, trying to achieve sort of a critical mass on 
maintenance and aircraft sustainment and so on, where we may 
decide or we may propose that it makes sense to have fewer 
larger squadrons rather than more smaller squadrons.
    If that is the debate, then that might affect how you 
distribute units to legacy organizations and you might suggest 
future missions, in other words, non-flying missions, as 
compensation.
    So these are kind of the dialogues that we will have 
internally. Naturally, we will certainly interact with the 
Congress on this as these choices begin to solidify.
    Mr. Coffman. Secretary Donley, any visibility on this?
    Secretary Donley. I think the chief has been very 
articulate on this point, and I would just like to reinforce 
for the committee and all the members affected by this.
    In general, we have had a number of conversations with 
members, House and Senate, National Guard and other communities 
out there concerned about the drawdown in the number of 
airplanes, but this is a broader trend for our Air Force.
    So we do have challenges out there. We do need to have our 
Reserve components, as well as our active forces, of course, as 
well, thinking about the broader changes in the Air Force that 
are underway underneath this so that folks understand that, in 
general, with a few exceptions, we are going to have less 
airplanes available going forward.
    The demand signals are on the cyber side. The demand 
signals are on the space side. And we need to think about how 
our forces are sort of reconfigured and how this looks going 
forward for the long term, as we spend just as much time on 
these space and cyber domains as we have spent over the last 
decades on our air domain.
    Mr. Coffman. Thank you, General, Mr. Secretary.
    Mr. Spratt. Mr. Bishop.
    Mr. Bishop. I appreciate--in fact, I have found the 
questions and answers very fascinating. And you two probably 
think this process sucks, but I have enjoyed it very much.
    I appreciate what you said to Congressman Turner. Let me 
reiterate, though, on one question with that, because outgoing 
Acquisitions Secretary Young, as he was leaving, made a 
statement that he didn't believe that depots--he did not favor 
depots doing major modification work. I realize he was talking 
about the C-130 at Warner Robins.
    I just want to know if the Air Force has that as a major 
policy or is that simply a throwaway line as he left?
    General Schwartz. I would say the latter, Congressman.
    Mr. Bishop. Okay, right answer.
    Let me go on to a couple of others, if I could. And can I 
just follow up on what you told Congressman Coffman?
    For example, in the legacy drawdown, the 388th, which is 
blended with the 419th Reserves, will lose 25 planes.
    Have you made the decision on whether to allow them to 
maintain squadron levels--and I think this is what you were 
talking about--at a lower level, 18, for example, as opposed to 
cutting off a squadron?
    Has that decision been made? If it is a flexibility you are 
still looking at, when will you probably decide that one?
    General Schwartz. I would say that comes in the next budget 
cycle. But we haven't come to closure on that question yet, but 
it does apply at Hill, sir.
    And this is the question and there are lots of factors that 
affect this. How many deployable units do you need? Can you 
split the larger squadrons if you have to? There is some 
overhead efficiencies with fewer units, but does that trump, 
again, the operational flexibility?
    These are not simple things to sort of decide on the fly, 
sir.
    Mr. Bishop. But we haven't walked through that, when the 
decision to take the legacy planes out. That is still a 
decision still to come. There is going to be some flexibility 
for the wings to help define the way they will be reduced.
    General Schwartz. Yes.
    Mr. Bishop. Secretary Donley, I appreciate receiving the 
letter from the questions that we asked Secretary Gates last 
week. Last night, we even got more information.
    I am talking specifically about maintaining a warm line for 
solid rocket motor proposals going on there.
    In essence, I appreciate the fact that I think now with 
2009, as well as 2010 budget money, the maintenance of that 
warm line will be there. We have got the information back we 
asked.
    The problem I have is it was simply unfair for me to ask 
Secretary Gates those questions in the first place. The only 
reason we did is because the gag order simply stopped all 
communication.
    As soon as that went into effect, there was no longer an 
ability of talking about what budgets would do, what is 
compatible there or not.
    And I would simply like to ask, Secretary, about your take 
on the gag order.
    Are there some areas in which we should loosen or shorten 
the time that was generated on that gag order going forth in 
the future? Because I think every one of the questions I asked 
Secretary Gates for which he had no answer could have been 
worked out at a lower level had not the gag order simply been 
in place.
    Secretary Donley. Well, I think the Secretary has been 
clear that that was a very temporary management device, and I 
think, from his perspective, it was probably helpful to the 
Department's work.
    Another complicating factor on the issue that you raised on 
solid rocket motor industrial base was that we had been working 
on this issue in the context of our fiscal year 2009 
reprogramming, which, as we noted in the letter back to you, is 
not yet complete.
    So not all of this was in conjunction with a gag order that 
was connected to fiscal year 2010, but it was also from our 
preparations for fiscal year 2009, which had not been completed 
earlier this year.
    So there is a timing difference there.
    Mr. Bishop. Well, let's hope there are some adjustments 
later on.
    General, I am going to ask an unfair question. You stated 
already--and I will give you an answer, so you can back out of 
it, if you want to.
    You said if there were many more dollars, we are the best 
Air Force for the resources we have.
    As soon as you were appointed, and correct me if I am wrong 
on this, you said 240 F-22s was the right number. Is that the 
right number or is it the right number that our resources allow 
us to have in this zero sum game?
    General Schwartz. Two forty-three is the right number and 
187 is the affordable force.
    Mr. Bishop. You said it very well. Thank you, sir.
    Mr. Spratt. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your endurance.
    In 2008, the National Defense Authorization Act (NDAA) 
provided a mandate that the Air Force conduct a pilot project 
on a fee-for-service concept for tankers, which seems like a 
spectacularly expensive financing tool, given that tanker 
capacities are only used by the Air Force, and we don't use it 
in the commercial airliners or anywhere else.
    You would get perhaps some savings if you could buy that 
off the shelf.
    General Schwartz, can you catch us up to speed on where 
that effort is right now?
    General Schwartz. Sure. We put out, I think last October, a 
request for information on that to industry. We got replies 
back in March.
    We are continuing to digest that information. The bottom 
line is there are both some statutory and some practical 
obstacles to this. For example, a multiyear services contract 
would be needed to make this work, which currently is not 
authorized.
    There are some issues with regard to Federal Aviation 
Administration (FAA) certification that would have to be dealt 
with, and so on. It is not simple. And we will complete the 
process of sort of digesting the industry proposals and report 
back on the viability of this pilot program.
    Mr. Conaway. I think this thing authorized $10 million to 
do all this work. Is there a better place to spend $10 million? 
Should the Air Force really even finish this study?
    Do you know enough now to know that this is so much more 
expensive than any other alternative, that we can save whatever 
is left of the $10 million and buy something else with it?
    General Schwartz. Sir, we currently have guidance to wrap 
this up. Frankly, I think it is probably the right thing to do 
to come to closure on this, not to leave this sort of an open 
question, but let us come to a compelling position on it so we 
can--if it is not a good idea, we put it behind us, and if it 
is viable, we will press on according to the Congress's wishes.
    Mr. Conaway. And that is reasonably soon, in your mind?
    General Schwartz. Yes.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    Secretary Donley. If I could add just one thing on that, 
Mr. Conaway.
    Mr. Conaway. Sure.
    Secretary Donley. Just to reiterate. The costs are 
significant and those are not part of our plan going forward.
    So the estimate is roughly, for an eight-year period, 
somewhere between $500 million and $900 million.
    Mr. Conaway. All right. Thank you. Appreciate you.
    Secretary Donley. This is not part of our plan.
    Mr. Spratt. Ms. Fallin.
    Ms. Fallin. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today and we 
appreciate your service to our Nation.
    The fiscal year 2010 budget request contains more than $1 
billion for military construction (MILCON), and the Army has 
more construction funding at one installation than the entire 
Air Force, Air National Guard, and the Air Reserve military 
construction combined.
    This decline in infrastructure investment is causing 
significant inefficiencies locally and accelerating degradation 
of assigned aviation assets.
    For an example, in my home state, in Oklahoma, Vance Air 
Force Base, and Tinker Air Force Base are both in need of new 
air traffic control towers and don't have the funding to make 
those upgrades to support their flying and training missions.
    Can you tell us why the Air Force did not program 
infrastructure in a time when we need to support these valuable 
assets? And what problems could this lack of MILCON funding 
have in the future for the Air Force?
    Secretary Donley. At the strategic level, we have been 
taking additional risk in infrastructure support and in MILCON. 
So we are aware of that. It is a financially constrained area.
    I am not familiar with exactly the status of the projects 
you mentioned, where they rank in the Air Force's MILCON 
priorities, but we know internally that this is a constrained 
area.
    General Schwartz. And I would just amplify that we 
undoubtedly came to the conclusion that Vance and Tinker were 
not as pressing as other requirements.
    For example, those that are supporting the fight forward is 
a case in point.
    So what we have tried to do, ma'am, is prioritize to the 
best of our ability, and there will be places we will have to 
defer action.
    Ms. Fallin. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Spratt. Secretary Donley, General Schwartz, thank you 
for your testimony, for your time, and, most of all, for your 
splendid service to our Nation. We appreciate it.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                              May 19, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 19, 2009

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 19, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SPRATT

    Mr. Spratt. The Air Force is close to deciding the relocation of 
AFCENT from Shaw Air Force Base to Al Udeid Air Base in Qatar. Did this 
proposal originate with the Air Force or with Central Command or the 
Department of Defense? What is the remaining path and likely time-frame 
for this decision?
    General Schwartz. In March, 2009, the Air Force made the decision 
to temporarily move no more than 30-50 AFCENT personnel to southwest 
Asia, specifically the Commander and his support staff.
    While the previous configuration of 9th Air Force (AFCENT) 
successfully sustained operations in central and southwest Asia, 
current operations would benefit from the dedicated forward presence of 
a senior Airman. The temporary separation between the stateside 
numbered Air Force and its warfighting component to USCENTCOM allows 
the USAFCENT commander to focus solely on USAFCENT duties, and the 9th 
Air Force commander to focus on oversight of its six stateside wings 
and one direct reporting unit. When contingency operations subside, the 
Air Force will reset to the peacetime configuration of 9th Air Force 
(AFCENT) at Shaw AFB.
    Mr. Spratt. A succession of three-star generals retained their 
headquarters at Shaw AFB during the first and second Persian Gulf wars, 
as well as the war in Afghanistan, at times when ops tempo was much 
higher than now. Why make this decision now when ops tempo is lower?
    General Schwartz. As we have learned lessons from the first and 
second Persian Gulf wars, we have made substantive changes to our 
command structures, including providing significantly improved support 
to our Combatant Commanders. The current configuration of 9th Air Force 
(AFCENT) is a reorganization following the first Persian Gulf War and 
has successfully sustained operations in central and southwest Asia. 
However, we feel current operations would benefit from the dedicated 
forward presence of a senior Airman. This temporary separation between 
the stateside numbered air force, 9th AF, and its warfighting 
component, USAFCENT, will allow the USAFCENT commander to focus solely 
on USAFCENT duties, and the 9th AF commander to focus on oversight of 
the six stateside wings and one direct reporting unit. When contingency 
operations subside, the Air Force will reset to the peacetime 
configuration of 9th AF (AFCENT).
    Mr. Spratt. You have described the proposed reconfiguration and 
forward deployment of the CENTAF commander as a necessary but temporary 
wartime measure. You have also indicated that it would be your intent 
to return to the status quo when the situation in southwest Asia 
permits. What assurances can the Air Force give that the reunification 
of CENTAF and 9th Air Force will in fact occur at Shaw AFB?
    General Schwartz. Our intent is to temporarily restructure these 
organizations to better serve the needs of the Air Force and the 
Department of Defense. Once no longer needed, 9th Air Force and 
USAFCENT will return to its previous status as a single command, 9th 
Air Force (AFCENT). We have designed the temporary split to be easily 
reversible by retaining existing unit designations for subordinate 
units and moving the minimum required number of personnel forward.
    Mr. Spratt. How many Air Force personnel would be relocated from 
Shaw to Qatar?
    General Schwartz. The current proposal is no more than 30-50 
personnel will move to southwest Asia.
    Mr. Spratt. Pursuant to BRAC 2005, elements of Third Army are 
preparing to relocate from Fort McPherson to Shaw Air Force Base. Have 
you ascertained the Army's intentions for ARCENT/Third Army in response 
to your restructuring plan? Does this move represent a deviation from 
the BRAC 2005 recommendations? What is the risk of adverse reaction on 
ARCENT/Third Army's part? Is ARCENT headquarters likely to follow suit 
and also forward deploy?
    General Schwartz. The Air Force cannot answer questions with regard 
to the intentions, risk or implications of any possible move of the 
ARCENT headquarters. We would respectfully ask that those questions be 
directed to the Army.
    Mr. Spratt. The Air Force intends to budget $19 million to expand 
and modernize the existing USAFCENT/Ninth Air Force Headquarters at 
Shaw, consolidating operations from five or six different buildings. 
The wing commander at Shaw has identified this expansion as Shaw's 
number one military construction project. Does the Air Force support 
funding of this expanded and modernized headquarters facility, which 
would help ensure USAFCENT's eventual return to Shaw?
    General Schwartz. The Air Force supports the headquarters project. 
The current working estimate for this project is $21.18M.
    Mr. Spratt. Has the Air Force considered the utility of retaining 
the designation of the headquarters facility at Shaw as the Ninth Air 
Force-USAFCENT (Rear) Headquarters if it proceeds with the 
restructuring proposal and forward deployment of USAFCENT?
    General Schwartz. We are considering several options to achieve our 
primary goal of providing dedicated Air Force support to the USCENTCOM 
commander. Our intent is to temporarily restructure these organizations 
to better serve the needs of the Air Force and the Department of 
Defense. The temporary separation between the stateside numbered air 
force and its warfighting component to USCENTCOM will allow the 
USAFCENT commander to focus solely on USAFCENT duties, and the 9th Air 
Force commander to focus on oversight of stateside wings. When 
contingency operations subside, the Air Force will reset to the 
peacetime configuration of a single command, 9th Air Force/AFCENT.
    Mr. Spratt. How many USAFCENT personnel are likely to PCS transfer 
from Shaw to Qatar? Would all of these assignments be unaccompanied?
    General Schwartz. The current proposal is no more than 30-50 
personnel on unaccompanied tours.
    Mr. Spratt. What are the Military Construction requirements in 
Qatar that will be necessary to accommodate the deployment of the 
USAFCENT headquarters?
    General Schwartz. Military Construction requirements have not yet 
been determined. The Air Force is still working the final details of 
the deployment, to include determining the most efficient team, timing 
of deploying from Shaw, and supporting infrastructure requirements.
    Mr. Spratt. What are the state-side Military Construction 
implications of moving the USAFCENT and/or ARCENT headquarters forward 
into the CENTCOM Area of Responsibility? If Shaw loses one or both of 
its three-star commands, will this affect the funding of Military 
Construction priorities?
    General Schwartz. The Air Force does not expect any impact to 
state-side Military Construction priorities associated with the moving 
of USAFCENT headquarters forward into the CENTCOM AOR. The Air Force 
makes military construction decisions based on the needs of the Air 
Force and the urgency of the requirement, not the rank of the Command.
    The Air Force cannot answer questions with regard to the 
implications of moving the ARCENT headquarters forward into the CENTCOM 
Area of Responsibility. Those questions are best directed to the Army.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. THORNBERRY
    Mr. Thornberry. Recently Secretary Gates advocated for quadrupling 
the numbers of trained DoD cyber professionals. The mission of the U.S. 
Air Force is ``to fly, fight and win . . . in air, space and 
cyberspace.'' Therefore, please define the cyber warfighter of today 
and describe what you see as the cyber warfighter of the future. 
Discuss whether cyber will be a new and separate career path with the 
potential for flag rank? Will these professionals be uniformed 
servicemembers or civilians? Officer, or enlisted? Joint, or service 
separate?
    Secretary Donley and General Schwartz. Cyber warfighters are 
skilled professionals working to deter and prevent cyberspace attacks 
against vital US interests, they ensure our freedom of action in 
cyberspace and respond to attacks and reconstitute operations. Cyber 
warfighters develop persistent cyberspace situational awareness and 
defeat adversaries operating throughout cyberspace.
    Today, Air Force cyber professionals are drawn primarily from 
communications, intelligence and engineering specialties, often 
returning after a single assignment. While this model is adequate, the 
Air Force recognizes that cyberspace is a dynamic and technically 
demanding warfighting domain of strategic national importance. The Air 
Force is committed to establishing dedicated officer, enlisted and 
civilian career fields to meet emerging demand and address recruiting, 
training, retention and force development challenges. Career paths, 
rank structure and flag officers are expected to reflect Air Force 
career field norms.
    All Air Force cyber operators and specialists will receive initial 
technical skills training at Keesler AFB via Undergraduate Cyber 
Training or initial cyber support training, to be followed by more 
advanced specialized training as dictated by their assigned unit 
mission. An undergraduate or graduate education with emphasis in 
computer science or engineering is highly desired for officers. 
Additionally, continuing cyber education requirements and solutions 
will also be necessary due to the rapid pace of technology change. 
Recognizing cyberspace is a Joint warfighting domain, this may include 
sister-Service or Joint/Interagency training when appropriate.
    Growing and developing cyber forces is a challenge DoD-wide. The 
Air Force is establishing dedicated officer, enlisted and civilian 
cyber operations career fields to meet Joint and Service cyber 
missions. Additionally, we continue to participate in robust inter-
Service dialogue and OSD efforts to develop DoD-wide cyber career force 
guidance.
    Mr. Thornberry. I applaud your recent decision to base the 24th Air 
Force at Lackland AFB in Texas. Nearby Sheppard AFB in Wichita Falls, 
TX has core competency in training missions and enjoys excellent 
community support for increased missions. Have you and will you 
consider Sheppard AFB for the Air Force cyber training mission?
    Secretary Donley and General Schwartz. We agree that Sheppard AFB 
is an outstanding training base and has always enjoyed great support 
from its local community. As we seek a location for our cyber training 
mission, we will consider Sheppard AFB, and intend on selecting the 
most favorable training location based on availability of facilities, 
cost, and relative proximity to other Joint cyber training venues.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. The Air Force Restructuring Plan (``the Plan'') 
released with the Air Force FY10 proposed budget shows that the Primary 
Aircraft Assigned (PAA) for the 388th Fighter Wing at Hill AFB, Utah, 
would be reduced by 24 F-16s, leaving 48 PAA after the restructuring. 
This is equivalent to a squadron. Did the plan envision disestablishing 
a full squadron by design?
    General Schwartz. Yes. The FY10 CAF Restructuring Plan offers your 
Air Force an opportunity to reap significant savings in funds and 
manpower by accelerating the retirement of 254 of our oldest fighters, 
reinvesting in critical modifications to our combat forces fleet, 
procuring preferred air-to-air and air-to-ground munitions and critical 
Air Force and Joint enabling technologies, and redistributing manpower 
to other emerging national priority missions.
    These actions will provide the United States with a smaller, but 
more flexible, capable, and lethal force as we bridge to our ultimate 
goal of a 5th generation-enabled force. The proposed Hill AFB changes 
are part of a global resource allocation process that meets strategic 
objectives.
    Mr. Bishop. How did the Air Force arrive at this number of PAA 
reductions for the 388th and what written analysis led to that 
conclusion?
    General Schwartz. The Air Force Combat Forces Assessment Model 
(CFAM), which is part of the Air Force approved analysis tool kit, was 
used to analyze the existing combat air force structure as part of 
developing the FY10 CAF Restructure proposal. Several CFAM iterations 
were run to find the optimum force mix in a resource constrained 
environment. Using the analysis results, we developed a force mix to 
meet national military objectives and identified the need for key 
enablers and advanced weapons for both the bomber and fighter forces. 
The resultant force mix presented less warfighting risk in FY15 and 
beyond than any course of action that maintained the status quo in 
legacy fighter numbers. This analysis assumed key reinvestments are 
made in modernization, preferred weapons, and key enablers.
    As we developed this plan over the last year, we were successful in 
balancing planned force reductions across our active duty, Guard, and 
Reserve components, as well as in the States and overseas locations. We 
carefully analyzed the missions across our units in all the Air Force 
components to achieve the force mix that met strategic objectives. The 
changes in this plan were closely coordinated with our Air National 
Guard and Air Force Reserve partners, as well as our Major Commands and 
affected Regional Combatant Commanders.
    Mr. Bishop. Does the plan allow for flexibility for Air Combat 
Command to meet the aircraft reductions by alternatively reducing the 
number of planes in each of the 3 existing squadrons in order to 
preserve greater deployment and training capability?
    General Schwartz. The proposed FY10 CAF Restructure plan provides 
maximum flexibility for global fleet management of Air Force F-16s. The 
reduction proposed at Hill AFB also represents part of Air Combat 
Command's fair share of fighter force reductions. We considered all 
options in order to achieve the desired 24 primary authorized aircraft 
reduction at Hill, but removing eight aircraft from each squadron would 
have resulted in an inefficient and nonstandard unit configuration of 
just 16 aircraft. Our analysis shows that after the reduction action, 
even with one Hill AFB squadron deployed, there are sufficient 
resources remaining at home station to provide required unit training.
    Mr. Bishop. The Total Force Integration of the 388th Fighter Wing 
and the 419th Fighter Wing has been a model for the Air Force. If a 
full squadron is disestablished as outlined under the plan, it could 
result in having one of the remaining two squadrons deployed in support 
of Wartime Operations, and the other squadron being tasked at home, and 
no ability for training left at home station since the 3rd squadron 
planes will be gone. Was this negative impact on training considered 
during the formulation of the plan?
    General Schwartz. The partnership between the active duty and Air 
Force Reserve components at Hill AFB was one of the first Total Force 
Integration (TFI) initiatives. The Classic Association of the Air Force 
Reserve with Air Combat Command in the F-16 mission at Hill Air Force 
Base has a proven record of success and has yielded valuable lessons 
learned for other TFI associations.
    As we developed this plan over the last year, we were successful in 
balancing planned force reductions across our active duty, Guard, and 
Reserve components, as well as in the States and overseas locations. We 
carefully analyzed the missions across our units in all the Air Force 
components to achieve the force mix that met strategic objectives. Our 
analysis shows that after the reduction action, even with one Hill AFB 
squadron deployed, there are sufficient resources remaining at home 
station to provide required unit training.
    Mr. Bishop. Did the Air Force consider the probable negative 
impacts of the plan on the 388th and 419th integration efforts under 
the Total Force Integration effort?
    General Schwartz. As we developed this plan over the last year, we 
were successful in balancing planned force reductions across our active 
duty, Guard, and Reserve components, as well as in the States and 
overseas locations. We carefully analyzed the missions across our units 
in all the Air Force components to achieve the force mix that met 
strategic objectives. Our analysis of the Total Force Integration 
efforts at Hill AFB shows that after the reduction action there will be 
sufficient resources remaining to enable successful integration.
    Mr. Bishop. The plan indicates ``future ``F-35 ops'' in the 
``outlook'' section listed for Hill AFB. The Air Force has indicated 
previously that the first operational squadrons of F-35s will be 
assigned to the 388th Fighter Wing. When may we expect an official 
announcement to that effect?
    General Schwartz. While the commander of Air Combat Command has 
previously announced his preference of Hill AFB as the first 
operational F-35 location, the Air Force has not officially announced 
any F-35 locations beyond the initial training location at Eglin AFB, 
Florida. The Air Force is developing selection criteria for F-35 
candidate bases, and is completing an enterprise-wide look with a goal 
of developing a repeatable, systematic process that can be applied to 
all bases across the Air Force to provide equity for decisions about 
future basing of the Joint Strike Fighter. The Air Force expects to 
make the first F-35 operational basing announcement in FY11.
    Mr. Bishop. When can we expect a timeline with regard to the F-16 
reductions recommended under the plan for Hill AFB along with a 
subsequent stand-up of F-35s?
    General Schwartz. The proposed F-16 reductions for Hill AFB begin 
with six aircraft departing in the first quarter of FY10, followed by 
six more in the second quarter, and the remaining 12 departing in the 
third quarter of FY10. Any stand-up of F-35s, if Hill is officially 
selected as an F-35 base, would occur in conjunction with an official 
basing announcement.
    Mr. Bishop. The Air Force's planned reduction of 24 F-16 aircraft 
at the 388th Fighter Wing at Hill AFB, Utah, (``Hill'') along with the 
Air Force announcement of ``full-support'' of the F-35 program in 
conjunction with the release of the Department's FY10 budget proposal, 
has left some confusion regarding the future of F-35 fighter basing at 
Hill. Does the Air Force plan to eventually station 2 or 3 squadrons of 
F-35s at Hill AFB as replacements for the 3 F-16 squadrons currently in 
place?
    General Schwartz. While the commander of Air Combat Command has 
previously announced his preference of Hill AFB as the first 
operational F-35 location, the Air Force has not officially announced 
any F-35 locations beyond the initial training location at Eglin AFB, 
Florida.
    The Air Force is developing selection criteria for F-35 candidate 
bases, and is completing an enterprise-wide look with a goal of 
developing a repeatable, systematic process that can be applied to all 
bases across the Air Force to provide equity for decisions about future 
basing of the Joint Strike Fighter. These selection criteria, along 
with operational warfighting requirements, will result in determining 
the number of aircraft to be stationed at the selected F-35 basing 
locations.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS
    Mrs. McMorris Rodgers. Secretary Donley and General Schwartz, thank 
you again for the time you took a few weeks ago to meet with me and the 
civic leaders from Spokane, Washington. As you could see, Eastern 
Washington takes great pride in our military and follow the Air Force 
closely. Fairchild Air Force Base is the largest employer in Spokane. 
And not only are the men and women who serve important, but it is 
important to our community that we replace the KC-135 with a new 
refueling plane.
    Can you tell us where you are at in the bid process with the KC-X 
program?
    Secretary Donley and General Schwartz. [The information referred to 
was not available at the time of printing.]
    Mrs. McMorris Rodgers. Last year I had the opportunity to visit the 
KC-135 depot at Tinker Air Force Base. I was amazed by the amount of 
time, effort and cost required to keep these planes flying. At what 
point does the Operation and Maintenance cost out weigh the cost of 
acquiring new tankers? Is the Air Force doing enough to relay this 
aspect of the tanker story?
    Secretary Donley and General Schwartz. [The information referred to 
was not available at the time of printing.]
    Mrs. McMorris Rodgers. The C-17 is also an important platform in 
Mobility Airlift. It is my understanding that the Mobility Airlift 
Requirement Capability study will come out late this summer or fall.
    How can we close down the C-17 production line before we have the 
Mobility Airlift Requirements Capability study completed? Just from a 
pure process standpoint; how do you shut down production when you do 
not even know what your own report will say?
    Secretary Donley and General Schwartz. [The information referred to 
was not available at the time of printing.]
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. WITTMAN
    Mr. Wittman. On Monday, May 18th, 2009, the Air Force provided 
information to my office detailing the evaluation criteria used in 
determining the most appropriate location for the US Air Force Cyber 
Command. The information is quite comprehensive and is useful in 
helping me understand exactly how the Air Force made a detailed and 
informed decision. However, I do have one remaining concern. Is there 
any situation that you can foresee resulting from the decision to base 
Cyber Command at a location other than Langley that would result in a 
shift of employment from Langley to another location?
    Secretary Donley. There is no plan in the foreseeable future to 
move any units located at Langley AFB as a result of locating 24 AF at 
Lackland AFB, TX.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. Is the Air Force taking into account the current 
realities of the F-35 program as detailed in this year's GAO report in 
planning recapitalization and modernization efforts in the Air Guard?
    Secretary Donley and General Schwartz. Yes. However, the Air Force 
will await reconciliation of the various F-35 program cost estimates by 
the F-35 Program Executive Officer; the Joint Estimating Team; and 
Government Accountability Office prior to making programmatic decisions 
concerning future Air Force F-35 procurement.
    Ms. Giffords. As Initial Operating Capability slides out past 2013, 
is it feasible under any scenario that the contractor can produce or 
the Air Force can procure enough F-35s to fill the needs of the Guard 
by 2017?
    Secretary Donley and General Schwartz. Secretary Gates has stated 
that his objective continues to be to equip the first Joint Strike 
Fighter training squadron at Eglin Air Force Base in 2011, and achieve 
initial operating capability for the Marines and Air Force in 2012 and 
2013, respectively. Our FY10 budget fully supports that objective for 
the Air Force F-35 Initial Operating Capability declaration. We have 
invested heavily in this program and expect that the Joint Program 
Office will ensure that it stays on track. We have stated on many 
occasions the foundation to Air Force fighter recapitalization lies 
with the F-35, and any delay in procurement could increase the cost and 
further delay these aircraft for all the Services, to include the Air 
National Guard and Air Force Reserve.
    As the Air Force continues to adapt to emerging new missions and 
focuses on supporting the warfighters in our current contingency 
operations, every Air National Guard unit that currently has a flying 
mission or fighter mission may not migrate to the F-35. They may 
migrate to an unmanned flying mission, or perhaps a non-flying mission. 
We will continue to work closely with our Air Reserve Component 
partners as we develop future plans for properly balancing capabilities 
and defining requirements between the active and reserve components.
    Ms. Giffords. The Department announced in April that they would 
cancel the CSAR (X) program. At Davis-Monthan Air Force Base in my 
district, they have long awaited the final selection and delivery of a 
new aircraft for this crucial mission. Secretary Gates said last week 
that he questioned buying an aircraft with a single mission for a 
single service. Do you share his view on CSAR?
    Secretary Donley and General Schwartz. When Secretary Gates 
cancelled the CSAR-X program, he directed an evaluation of combat 
search and rescue requirements in the context of joint force 
capabilities. The Air Force continues to support OSD and the Joint 
Staff as they conduct this evaluation. Once the study is complete, we 
believe that it will illustrate how our CSAR assets provide capability 
to all the services by supporting the Ground Component Commander, 
Special Operations Forces, and the Joint Forces Air Component 
Commander.
    Ms. Giffords. Secretary Gates said that buying an aircraft with 
only a 250 mile range represented an operational flaw. Was his 
information on the capabilities of the aircraft competing for the 
CSAR(X) contract accurate?
    Secretary Donley and General Schwartz. The Request for Proposal 
(RFP) released to industry stipulated an unrefueled range of 275nm as a 
threshold requirement. In addition, the RFP included a requirement for 
aerial refueling to enhance the range capacity of the helicopter. Given 
this capability, the range of the helicopter is only limited by 
regulatory guidance or crew endurance.
    Ms. Giffords. When the Air Force was designated the lead service 
for Combat Search and Rescue, who made that determination?
    Secretary Donley and General Schwartz. No single service is 
designated the ``lead service'' for Combat Search and Rescue. In 
accordance with DODD 3002.01E ``Personnel Recovery (PR) in the 
Department of Defense'' and Joint Publication 3.50 ``Personnel 
Recovery'', each Service/SOCOM shall provide personnel recovery 
capability in support of their own operations. However, given the 
demanding environment involved in deep combat search and rescue 
operations, the Air Force is the only Service with assets dedicated 
solely to this PR mission.
    Ms. Giffords. Why did the Air Force decide to move the CSAR mission 
out of AFSOC and back into ACC?
    Secretary Donley and General Schwartz. We decided to move the 
Combat Search and Rescue (CSAR) mission out of AFSOC and back into ACC 
to ensure the Air Force core competency of CSAR was directly linked to 
the preponderance of the Combat Air Forces (CAF) and the personnel they 
support. Additionally, the move allows us to consolidate and better 
manage the limited supply/high demand CSAR resources with other CAF 
assets.
    Collectively, CSAR is a team effort which involves numerous ACC 
assets--from the A-10s that locate and secure the rescue area, the 
Guardian Angel pararescuemen who physically provide the critical care 
and security required to save the lives of isolated personnel, the F-
16s and F-15s that conduct associated strike missions, to the AWACS 
professionals who coordinate command and control of the rescue--from 
beginning to end, the process is now under a single designated command 
and commander.
    Ms. Giffords. Are you considering moving the mission back to AFSOC 
given its specialty nature and that of its operators?
    Secretary Donley and General Schwartz. There is currently no 
discussion within the Department of the Air Force to move the CSAR 
mission or assets back to AFSOC.

                                  <all>

</pre></body></html>
